<html>
<title> - OVERSIGHT HEARING ON PILOT PROGRAM TO CONTROL NUTRIA AT THE BLACKWATER NATIONAL WILDLIFE REFUGE IN MARYLAND</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT HEARING ON PILOT PROGRAM TO CONTROL NUTRIA AT THE BLACKWATER 
                  NATIONAL WILDLIFE REFUGE IN MARYLAND

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     JULY 16, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-97

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources


                      U.S. GOVERNMENT PRINTING OFFICE
 50-341 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                  Christopher Mann, Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 16, 1998.......................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     2
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Baldwin, Andrew, Assistant Professor, Biological Resources 
      Engineering Department, University of Maryland.............     9
        Prepared statement of....................................    83
    Carowan, Glenn, Refuge Manager, Blackwater National Wildlife 
      Refuge accompanied by Dixie Bounds, Assistant Unit Leader, 
      Wildlife Research, Maryland Cooperative Fish and Wildlife 
      Research Unit..............................................     4
        Prepared statement of....................................    31
    Haramis, Michael, Wildlife Biologist, Patuxent Wildlife 
      Research Center............................................     5
        Prepared statement of....................................    34
    Pierce, Richard B., Director of Operations for Ducks 
      Unlimited, Inc., Great Lakes/Atlantic Regional Office......    20
        Prepared statement of....................................    78
    Rapp, Jim, Director, Salisbury Zoological Park...............    22
        Prepared statement of....................................    80
    Soutiere, Edward C., President and Manager, Tudor Farms, Inc.    18
        Prepared statement of....................................    78
    Taylor-Rogers, Sarah, Assistant Secretary, Maryland 
      Department of Natural Resources accompanied by Robert C. 
      Colona, Maryland Department of Natural Resources...........     7
        Prepared statement of....................................    36

Additional material supplied:
    Linscombe, Greg, Programs Manager, Fur and Refuge Division, 
      Louisiana Department of Wildlife and Fisheries, prepared 
      statement of...............................................    95



OVERSIGHT HEARING ON PILOT PROGRAM TO CONTROL NUTRIA AT THE BLACKWATER 
                  NATIONAL WILDLIFE REFUGE IN MARYLAND

                              ----------                              


                        THURSDAY, JULY 16, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.
    Mr. Saxton. The Subcommittee will come to order for the 
purpose of conducting a hearing.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries, Conservation, 
Wildlife and Oceans is meeting today to conduct an oversight 
hearing on a pilot program to control the non-indigenous 
species, nutria, which is destroying valuable wetlands in the 
Blackwater National Refuge in Cambridge, Maryland. And it goes 
without saying that this hearing has been called at the request 
of our good friend from the Eastern Shore, Mr. Gilchrest, who 
is I know very concerned about this issue.
    By way of background, nutria are large semi-aquatic rodents 
that are native to South America. They have brown fur with 
small ears. Very good.
    [Laughter.]
    Webbed hind feet, and a long, lengthy tail. They cannot be 
called little rats because they are big rats, it says here. The 
nutria may weigh up to 20 pounds. Nutria live along the banks 
and lakes, marshes, ponds and rivers. They are surface feeding 
herbivores that can be extremely destructive to marsh 
vegetation. These powerful animals forage directly on the 
vegetative root mat leaving the marsh pitted and digging sites 
and fragmented with deep swim canals. In the face of rising sea 
levels, nutria damage is particularly problematic because it 
accelerates the erosion and the processes associated with tidal 
currents and wave action.
    Nutria were introduced in Maryland in the 1950's to assist 
the fur industry. There are currently between 100,000 and 
150,000 nutria living in the Blackwater National Wildlife 
Refuge and private fur trappers have not begun to keep pace 
with the animal's ability to reproduce. To compound this 
problem there are no natural pred-

ators to control nutria and nutria are causing serious problems 
for native wildlife, fish, plants and marsh ecosystems.
    During the past year, the U.S. Fish and Wildlife Service 
has been working with the Maryland Department of Natural 
Resources, the Maryland Cooperative Fish and Wildlife Research 
Unit, and the Patuxent Wildlife Research Center, the University 
of Maryland and Tudor Farms on a strategy to deal with the 
growing problem. This group issued a report on April 3, 1998, 
entitled ``Marsh Restoration: Nutria Control in Maryland''.
    I look forward to hearing from our witnesses about this 
report and how or if, its recommendations can be implemented. 
Thank you all for being here today. I would now like to 
recognize Mr. Gilchrest for any statement he may have.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    The Subcommittee will come to order. The Subcommittee on 
Fisheries Conservation, Wildlife and Oceans is meeting today to 
conduct an oversight hearing on a pilot program to control the 
nonindigenous species nutria, which is destroying valuable 
wetlands at the Blackwater National Wildlife Refuge in 
Cambridge, Maryland.
    By way of background, nutria are large, semi-aquatic 
rodents that are native to South America. They have brown fur 
with small ears, webbed hind feet, and a long, lightly haired 
tail. Wild nutria may weigh up to 20 pounds. Nutria live along 
the banks of lakes, marshes, ponds, and rivers. They are 
surface-feeding herbivores that can be extremely destructive to 
marsh vegetation. These powerful animals forage directly on the 
vegetative root mat, leaving the marsh pitted with digging 
sites and fragmented with deep swim canals. In the face of 
rising sea levels, nutria damage is particularly problematic 
because it accelerates the erosion and processes associated 
with tidal currents and wave action.
    Nutria were introduced in Maryland in the 1950's to assist 
the fur industry. There are currently between 100,000 and 
150,000 nutria living at the Blackwater National Wildlife 
Refuge, and private fur trappers have not begun to keep pace 
with the animals' ability to reproduce. To compound this 
problem, there are no natural predators to control nutria, and 
nutria are causing serious problems for native wildlife, fish, 
plants, and marsh ecosystems.
    During the past year, the U.S. Fish and Wildlife Service 
has been working with the Maryland Department of Natural 
Resources, the Maryland Cooperative Fish and Wildlife Research 
Unit, the Patuxent Wildlife Research Center, the University of 
Maryland, and Tudor Farms on a strategy to deal with the 
growing nutria problem. This group issued a report on April 3, 
1998, entitled ``Marsh Restoration: Nutria Control in 
Maryland.''
    I look forward to hearing from our witnesses about the 
report and how, or if, its recommendations can be implemented. 
Thank you for being here today.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Well, thank you, Mr. Chairman. I appreciate 
the fact that you've--that you're having this hearing this 
afternoon. Many of the people in the audience that will discuss 
this issue today are the constituents of the First District of 
Maryland. They've been wrestling with this problem for decades 
if not for years, and we look forward to your testimony and 
we're up here to try to figure out what we can do to not only 
resolve the problems of the nutria to bring them into some type 
of balance, if not eliminate them entirely and appropriate 
the--or authorize, because we're not the appropriators although 
that would be an interesting change in next year's rules, the 
authorizing committees could also be the appropriators. We'd 
solve a lot of controversy on that, not only to figure out what 
to do about the nutria, and I think we as human beings are 
smart enough to figure out how to reduce their numbers and 
actually eliminate their numbers. We've done it to a lot of 
other species so we could probably do it to the nutria or ship 
them all back to South America.
    But in the process I think what we'd like to get out of 
this project as well in collaboration with Louisiana and other 
States that are doing the same kind of thing, is an 
understanding of the complexity of natural processes and how 
over just the length of time that the planet Earth first came 
into being to now, the interaction of the complexity of the 
mechanics of creation are rather extraordinary. That if you 
pick up a piece of dirt--you go almost anywhere and you get a 
handful of dirt, and the organized structure in the genetic 
code of that handful of dirt is more complex than all the land 
mass of all the planets in the solar system. And we're dealing 
with natural processes and biological systems are the most 
complex systems in the universe, and it's not something we want 
to pass off lightly.
    So understanding the nature of introducing a non-indigenous 
species to the United States and other areas and its impact on 
the natural processes and how they have evolved over many 
millions of years, going to teach us I think a valuable lesson 
about biological diversity and not interfering to the extent 
that it is possible with the mechanics of those biological 
systems.
    And so I'm really looking forward to the testimony of the 
witnesses here today, for one, I don't see all of you folks as 
often as I would like to see you because we've been discussing 
a lot of these issues, whether they're endangered species; 
whether they're Delmarva fox squirrel; or whether they're the 
interesting topic with many of the State people on Wetlands; 
all of us have been involved in these issues for a number of 
years. So we look forward to not only your testimony but your 
continued expertise in resolving some of these issues, and 
thanks again for coming.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Saxton. Would you like to introduce the panel of 
witnesses?
    Mr. Gilchrest. Sure, all right. On the first panel is Glenn 
Carowan. He's the refuge manager down there; that I think, at 
least on Sunday, you have nutria for your main course.
    [Laughter.]
    Ms. Sarah Taylor-Rogers, assistant secretary, Maryland 
Department of Natural Resources. Sarah and I have gone over a 
lot of issues relating to the Chesapeake Bay, and I think Sarah 
probably eats there twice a week.
    Michael Haramis, Wildlife Biologist, Patuxent Wildlife 
Research Center--thanks for coming, Mike.
    Dr. Andrew Baldwin, assistant professor of Biological 
Resources Engineering Department, University of Maryland.
    We want to welcome all of you here this afternoon and we 
look forward to your testimony.
    And Ms. Dixie Bounds, I didn't--there you are--Assistant 
Unit Leader, Wildlife Research, Geological Survey, is here with 
us today. We've done an interesting thing a few years ago in 
Congress. We put the Biological Services under--what was that 
called, the biological--we're going to count the biology. 
National Biological Sur-

vey--thanks--and it's now in the U.S. Geological Survey, along 
with nutria. Thanks for coming, Ms. Bounds.
    Mr. Saxton. Thank you very much, Mr. Gilchrest. We're going 
to proceed. We operate here under what we call a 5-minute rule 
which gives everybody 5 minutes to make an outline of their 
testimony and of course, your full testimony, written, will be 
included in the record if you desire. We'll start with Dixie 
Bounds and move from your right to your left across the table. 
So Ms. Bounds, if you would like to begin we're ready to hear 
your testimony.

STATEMENT OF GLENN CAROWAN, REFUGE MANAGER, BLACKWATER NATIONAL 
  WILDLIFE REFUGE ACCOMPANIED BY DIXIE BOUNDS, ASSISTANT UNIT 
   LEADER, WILDLIFE RESEARCH, MARYLAND COOPERATIVE FISH AND 
                     WILDLIFE RESEARCH UNIT

    Mr. Carowan. Dixie is going to be accompanying me, sir.
    Mr. Saxton. OK, very good. Thank you. Glenn Carowan.
    Mr. Carowan. Thank you. Good afternoon, Mr. Chairman and 
members of the Subcommittee. I am Glenn Carowan and I'm the 
manager of Blackwater National Wildlife Refuge on Maryland's 
Eastern Shore. Accompanying me is Dr. Bounds, the Assistant 
Unit Leader for Wildlife with the Maryland Cooperative Fish and 
Wildlife Research Unit.
    During my 28 years of managing wetlands for the National 
Wildlife Refuge System, I've never witnessed marsh loss 
anywhere as significant as it is occurring now on the lower 
Eastern Shore. My colleagues and I are very concerned about the 
health of our marshlands and the impacts that nutria are having 
on our wetlands in Maryland and throughout our country.
    Before you is an average size nutria. These highly 
invasive, non-native rodents were introduced from South America 
to the United States in the early 1900's to stimulate the fur 
industry. When fur businesses failed in the 1940's nutria were 
released into the wild. In Louisiana the population quickly 
grew from 13 in 1937 to an astounding 20 million by the late 
1950's. From release sites on or around Blackwater Refuge, 
refuge populations have grown from 30 released animals in the 
early 1950's to estimates as high as between 50 and 100,000 
today. This is the story for almost half the States and many 
other refuges in this country as seen on the map. Nutria are 
established in 22 States and Ontario, with sightings in 40 
States and three Canadian provinces.
    Nutria devour our wetlands. They consume the above-ground 
vegetation, excavate the root mat, eliminate plant 
reproduction, and create large crater-like depressions and deep 
swim canals that allow saltwater to enter and degrade these 
delicate ecosystems. The result is that thousands of acres of 
our Nation's valuable marshlands are degraded or converted to 
open water. No place on Maryland's Eastern Shore is this more 
evident than in and around the marshes of Blackwater Refuge, as 
seen on the comparable aerial photographs that are in front of 
you.
    Over 7,000 acres of marshland have been lost during the 50 
years since nutria were first released into the wild. While 
other factors including sea level rise, land subsidence and 
salinity changes also affect marsh loss, we recognize that we 
can only con-

trol nutria populations. Therefore, any effective plans for 
preserving and restoring our marshlands has to include efforts 
aimed at eradicating nutria. But with the rate of marsh loss 
accelerating we must move quickly. Accordingly, 17 Federal, 
State, and private organizations have joined forces to develop 
a plan to determine the feasibility of eradicating nutria.
    The initial phase of this effort entitled ``Marsh 
Restoration: Nutria Control in Maryland'' is based on 5 years 
of collaboration among the partners with input from private 
land owners and specialists, and specifically on 
recommendations by Dr. Morris Gosling, a nutria expert from 
England. We feel that this pilot program is most applicable to 
Maryland because of the strength of this multi-agency private 
partnership that contributes over $1 million in in-kind 
services, because the nutria population is geographically 
isolated on the lower Eastern Shore, and because the overall 
State-wide population is still relatively small when compared 
to other States.
    The National Wildlife Refuge System exists for the 
protection and management of plants and animals native to the 
United States. The policy of the Fish and Wildlife Service is 
to prevent further introduction of exotic species on national 
wildlife refuges, and to protect those resources from competing 
with non-native species such as nutria.
    Control procedures are delegated to the Secretary of 
Interior by Executive Order 11987, which also directs Federal 
agencies to restrict the introduction of exotic species into 
areas they administer.
    Therefore, in addition to being extremely important to the 
future of Blackwater Refuge, the pilot program also helps other 
affected refuges achieve the mission for which the National 
Wildlife Refuge System was established and the purposes for 
which Congress established these individual units. If 
successful the program will likewise be helpful to State and 
private managed areas throughout this country and the world. 
The adverse effect of nutria foraging and burrowing on our 
forested and emergent wetlands, our agricultural areas and 
levees, seriously compromise our ability to achieve our 
wildlife management objectives and have long-lasting adverse 
environmental, cultural and economical consequences.
    Therefore, we believe that this pilot effort is extremely 
important to the future welfare of the trust resources which 
the Fish and Wildlife Service manages for the benefit of the 
American people.
    Thank you for this opportunity to appear before you today 
and I'll be happy to answer any questions.
    [The prepared statement of Mr. Carowan may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much.
    We'll move right along then to the next witness, Mr. 
Haramis.

  STATEMENT OF MICHAEL HARAMIS, WILDLIFE BIOLOGIST, PATUXENT 
                    WILDLIFE RESEARCH CENTER

    Mr. Haramis. Mr. Chairman, members of the Subcommittee, it 
is with pleasure that I appear before you today to provide 
information relevant to the nutria/marsh loss issue in 
Maryland. Thank you for inviting me.
    My name is Michael Haramis and I'm a research wildlife 
biologist with the Patuxent Wildlife Research Center, part of 
the U.S. Geological Survey.
    In 1995 I was asked by the State of Maryland Department of 
Natural Resources and the Fish and Wildlife Service's 
Blackwater National Wildlife Refuge to conduct a study to 
investigate the role of non-native nutria on the extensive loss 
of marsh that has occurred over a number of decades along the 
Blackwater River and adjoining tidal river marshes in 
Dorchester County, Maryland. Specifically, since the 1950s, 
about six square miles of vegetation have been converted to 
open water on the refuge and over 50 percent of remaining 
vegetation has been termed unhealthy and likely to be lost in 
the near future. The result of this habitat change has been to 
create a large lake out of what was once nearly continuous 
marshland. You can refer to the black-and-white aerial photos 
on display that depict this very clearly.
    Managers were blaming this loss of marsh on the South 
American nutria, a large 8-18-pound invasive, beaver-like 
rodent that was introduced to Maryland's Eastern Shore marshes 
in the 1940s. The interest in this animal was its potential fur 
value. No other grazing rodent of this size has ever occupied 
these habitats in the developmental period of these marshes 
since the Chesapeake Bay was formed some 10,000 years ago. 
Nutria are plant eaters that graze surface marsh vegetation and 
are particularly fond of Olney bulrush, a plant that grows in 
extensive stands at Blackwater.
    To better understand the role of nutria and marsh loss at 
Blackwater, I designed the largest exclosure study of its kind 
to address this issue. Over 1.5 miles of fencing were 
entrenched in the marsh to exclude nutria from 20 experimental 
plots, each a quarter acre in size. These exclosures would 
allow us to measure the ability of marsh plants to recover in 
the absence of nutria grazing and compare it to the plant loss 
or gain outside the exclosures where nutria were still present. 
As you can imagine, installing this fencing required several 
months of intense labor.
    To demonstrate the maximum effect of exclosure, I direct 
your attention to the poster exhibit on your left. The plot on 
the left half of the photo is one of the first plots fenced and 
the plants show a remarkable recovery in one growing season 
after fencing. However, our original fencing technique was not 
strong enough to keep out the nutria and after 1 year they 
breached the fence and caused extensive damage to the 
vegetation on the right. These photographs clearly depict the 
compelling nature of the devastation that nutria have on marsh 
vegetation in this area.
    One could ask why vegetation didn't recover as rapidly in 
every exclosure in the absence of nutria? The answer lies in 
the type and extent of damage that has been inflicted in the 
marsh. Nutria not only graze the above ground stems of plants, 
they are powerful animals that dig into the marsh and excavate 
the root systems which makes plant recovery extremely difficult 
and in many instances unlikely. This damage to the root mat of 
vegetation is especially critical because much of the marsh in 
the Blackwater Basin is floating on a layer of fluid mud, and 
the root mat is the fabric that holds the marsh together. Once 
the nutria cut through the root mat, the underlying mud is 
easily eroded away by water action. The result is that the 
marsh breaks up, sinks, and the vegetation is killed by 
inundation.
    I found nutria abundant in this marsh and can report severe 
damage in much of the marsh that could only likely occur during 
periods of overpopulation of these animals. Although lightly 
damaged marsh such as depicted in the above poster has good 
probability of recovery after nutria are removed, heavily 
damaged marsh has little recovery potential without some 
restoration effort.
    Although my study will not be completed until 1999, 
evidence and observations made so far lead me to offer the 
following conclusions: (1) nutria play a direct role, may have 
initiated, and I can state with certainty have accelerated the 
loss of marsh in the Blackwater Basin region; (2) nutria are 
destructive to this marsh because they have the ability to 
excavate the root mat, fragment the marsh surface and expose 
the subsurface to water erosion; (3) nutria are abundant and 
frequently overpopulated in the marsh. Traditional harvest 
methods clearly have proven inadequate to control their 
numbers. And last (4), controlling or eliminating nutria would 
clearly be beneficial in mediating marsh loss in the Blackwater 
River Basin.
    This ends my presentation. Again, I would like to thank you 
for this opportunity. I'd be glad to answer any questions you 
may have.
    [The prepared statement of Mr. Haramis may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, sir.
    Dr. Taylor-Rogers of the Maryland Department of Natural 
Resources. Welcome.

STATEMENT OF SARAH TAYLOR-ROGERS, ASSISTANT SECRETARY, MARYLAND 
   DEPARTMENT OF NATURAL RESOURCES ACCOMPANIED BY ROBERT C. 
        COLONA, MARYLAND DEPARTMENT OF NATURAL RESOURCES

    Dr. Taylor-Rogers. Indeed so, sir. Thank you kindly, Mr. 
Chairman and Congressman Gilchrest. My name is Dr. Sarah 
Taylor-Rogers. I am an assistant secretary for resources 
management in the Maryland Department of Natural Resources. I 
appreciate the opportunity to share with you Maryland's 
perspective on nutria and also some aspects of the pilot plan 
that's been developed.
    We are concerned about nutria because there is no natural 
predator for the control of the population and the population 
is growing. In addition to that, besides the destruction of 
native habitat, we will be losing that native habitat to the 
destruction of those very natural resources that use it, such 
as the fish and shell fish which spawn in these nursery areas. 
And the Blackwater is part of the Atlantic flyway. To date, 
eight counties have established populations. Maryland is the 
best place for this pilot study because the land available on 
which the nutria happen to be found are primarily Federal and 
State, so therefore, there is accessibility. The States of 
Virginia, Maryland, Pennsylvania, and the District of Columbia, 
along with the Federal partners, have supported a no net loss 
wetland policy and have fostered species diversity under the 
Bay Program.
    The Department of Natural Resources is also a trust 
resource partner with the U.S. Fish and Wildlife Service and, 
as such, is responsible for managing and protecting native 
natural resources to the best of our ability. And for the last 
9 years the State has formed partnerships to assess the nutria 
problem and its effect on marshland.
    These studies are as follows: In 1989 we began a catch per 
unit effort to assess population characteristics; in 1993 we 
developed the first multi-agency nutria task force to find ways 
to control nutria and passed Senate bill 27 which provides for 
50 percent of the duck stamp revenues to go toward the control 
of nutria. In 1994 we contracted with Dr. Gosling from England 
who had successfully eradicated from East Anglia, and in 
essence, he told the task force that the same thing could be 
done in Maryland but to do so we had to do several things.
    First, we had to garner information; we had to carry out 
the exclosure studies which Mike Haramis just described for 
you; we had to develop a well-structured approach; develop a 
nutria removal scheme through the use of trappers to assess 
population and to figure out what it would take to eradicate 
these 30 pound rats.
    The third thing, to assess progress. To set up a monitoring 
team to assess progress and assess the effect on wetlands and 
their ability to rebound--and Alan Baldwin will talk about 
that--and to educate the public through the use of valuable 
videos and kits, information kits, to inform them that this 
particular species is non-native.
    Aspects of the plan which are before you and in your packet 
include the following: We propose the 3 year effort totaling 
$3.7 million.
    Two, of that total amount slightly over $902,000 is being 
offered in kind by the State, U.S. Fish and Wildlife Service, 
U.S. Geological Survey, University of Maryland, Ducks 
Unlimited, and Tour de France.
    No. 3, we propose to use three areas for the pilot program 
located within and outside the Blackwater National Wildlife 
Sanctuary boundaries. Two of the sites will undergo intensive 
trappings with humane measures being taken and one area will be 
the control.
    No. 4, we anticipate that an advisory team will be formed 
comprised of the Federal, State and private partners and that 
this team will provide advice and guidance to assure success.
    No. 5, the trappers and the researchers will together 
assess the range, health and dynamics of the nutria population 
as well as the effect on the marsh, and this will garner the 
information needed. We will do so through the use of radio 
collars, ear tags, and various trapping techniques will be 
compared. And also a reward will be established for the return 
of marked animals.
    No. 6, the effect of nutria foraging on marsh vegetation 
will be assessed and a method will be explored to restore areas 
of marsh which have experienced the eat-out effect of nutria.
    And finally, a public awareness and education campaign is 
also proposed with exhibits, tool kits and videos being the 
means for getting the word out. Dr. Gosling noted that the key 
to successfully removing nutria is to conduct the pilot study 
that will help the managers and researchers to modify harvest 
techniques and refine strategies. The pilot plan for which we 
are seeking funding from either unspent Federal moneys or new 
dollars, represent the best thinking and practical approach 
toward the resolution of this problem.
    Thank you very much for the opportunity to present 
Maryland's perspective. I look forward to any questions.
    [The prepared statement of Dr. Taylor-Rogers may be found 
at end of hearing.]
    Mr. Saxton. Thank you very much, Dr. Rogers.
    Dr. Baldwin.

 STATEMENT OF ANDREW BALDWIN, ASSISTANT PROFESSOR, BIOLOGICAL 
    RESOURCES ENGINEERING DEPARTMENT, UNIVERSITY OF MARYLAND

    Dr. Baldwin. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Andy Baldwin. I'm with the Department 
of Biological Resources Engineering at the University of 
Maryland at College Park. I'm a wetland biologist there. I'm 
going to be talking today about the wetland restoration 
demonstration project which is a component of this pilot 
program to eliminate nutria.
    The objectives of this wetland restoration demonstration 
are first of all to demonstrate that nutria eradication will 
enhance efforts to restore coastal wetlands. Second, we want to 
investigate the effects of increases in marsh elevation and 
planting of native species on the success of restoration 
efforts. Finally, this information will be used to support the 
design and implementation of large-scale restoration programs 
for coastal marshes that are experiencing nutria grazing as 
well as coastal submergence.
    What are some of the factors that control marsh 
deterioration? Well, you've heard about nutria; these animals 
cause damage to leaves and roots of marsh plants and they 
remove the resources of the plants for growth. There's another 
factor, coastal submergence, and this is the increase in water 
level relative to the marsh as a result of land subsidence, 
that is, the sinking of land as well as sea level rise. Higher 
submergence reduces the ability of plants to grow and inhibits 
seed germination, preventing colonization of marsh habitat. The 
combination of nutria grazing and submergence can actually kill 
wetland vegetation rapidly and this can lead to wetland loss.
    How do you restore wetlands? Well, nutria eradication is 
certainly one component of this. Other important components may 
be increasing the elevation of marsh sediments somehow to 
reduce submergence, promoting plant growth and colonization. 
Another technique is to plant vegetation which should speed the 
reestablishment of desirable native plant communities and 
reduce colonization by non-native or invasive species like 
Phragmites, the giant reed.
    One way of restoring or increasing marsh sediment elevation 
is to use a technique called thin layer sediment deposition. 
This is a technique where sediment is pumped out of a canal or 
a channel and pumped through a sprayer so it's deposited on a 
marsh surface in a very thin layer. This has several advantages 
over traditional or conventional dredging techniques.
    First of all, you can operate this dredging system in a few 
feet of water such as you have out at Blackwater and other 
deteriorating areas. You can pump the sediment a long way away 
from the dredge unit. You can spray it onto both vegetated and 
non-vegetated areas and this technique has been used 
successfully down in Louisiana to restore coastal marshes 
there. What we are proposing to do is to establish two acre 
areas at both Tudor Farms properties and Blackwater National 
Wildlife Refuge and subject them to different amounts of 
sediments, sprayed on using this thin layer deposition 
technique. In each of these areas we will plant half and leave 
half unplanted, plant it with a native desirable marsh species 
such as three Olney's square, and then within that, fence a 
portion of that area and leave another portion unfenced. That 
way we could look at interactions among all these factors and 
how these different treatments, these restoration treatments, 
affected the success of restoration.
    What do we think this will--what kind of benefits will this 
provide? Well, first of all, it should provide a visual and 
scientific demonstration of the effects of nutria eradication 
as well as sediment elevation and vegetation planting on the 
success of restoration efforts. These findings should be 
directly applicable to designing and implementing large-scale 
wetland restoration projects in the mid-Atlantic region and 
elsewhere in coastal marshes experiencing wetland loss. And 
finally, this project will have the substantive benefit of 
creating several acres, restoring several acres of deteriorated 
coastal marsh.
    Thank you very much and I'll take any questions that you 
may have.
    [The prepared statement of Dr. Baldwin may be found at end 
of hearing.]
    Mr. Saxton. Thank you all very much. I just have a couple 
of questions. I guess the answers to these questions seems to 
be self-evident, but let me ask them anyway for the record.
    Obviously, as has already been stated, there are no natural 
enemies for these critters, is that correct? At least in 
Maryland? Are there natural enemies in other parts of the 
world, South America?
    Dr. Baldwin. Down in Louisiana there are alligators that 
eat some of the nutria. Nutria are a real problem down there 
but there aren't enough alligators to diminish the population 
to any great extent.
    Mr. Saxton. And it would be a bad idea to import 
alligators?
    [Laughter.]
    Dr. Baldwin. It could be. Another exotic species.
    Mr. Saxton. These critters live obviously above water level 
in some fashion. How do they change the habitat other than 
eradicating vegetation and the roots of the vegetation? What 
kind of houses do they live in? Are they like beaver or 
muskrats or----
    Mr. Carowan. They generally live on the surface of the 
marsh. In Maryland they tend to build leaf nests right on the 
surface of the marsh. They also burrow into our levees and our 
dike systems. Particularly in Louisiana we have a large problem 
with nutria burrowing into the levees around New Orleans and 
other places. We call them vagabonds. They tend to move around 
a lot on the sur-

face of the marsh. They don't really build a lodge as such like 
a beaver would or as a muskrat would.
    So they tend to move around and they live pretty much where 
they can find a spot. If they find a dry spot underneath a tree 
they'll bed under there. They'll get underneath your building, 
and they'll get under your front porch. Wherever they can find 
a place to get out of the weather, that's what they do.
    Mr. Saxton. I see. And the damage they do appears to be 
quite similar to the damage done by snow geese in some of our 
central flyway marshes and East Coast flyway--East flyway 
marshes. Is it the same kind of thing?
    Mr. Carowan. Very similar. Very, very similar with the 
exception that nutria tend to excavate much deeper than the 
snow geese do. That's been my personal experience on 
Blackwater. They tend to dig that root system up and destroy 
the vegetation so that it does not come back. Once they dig 
that root system up we just do not get very much reproduction, 
recolonization of those areas that have been destroyed.
    Mr. Saxton. And one of the things that Mr. Gilchrest and I 
have noted over the years is that if it's possible--let me put 
it another way. Oftentimes we are successful in creating 
markets for various types of critters--I'm thinking mostly of 
fish, I guess--and then the supply of fish diminishes in direct 
correlation to the demand that has been created. Is it possible 
to create any kind of a demand for fur or meat or any--is there 
any variation thereof that is a feasible, partial answer?
    Dr. Taylor-Rogers. We have been following Louisiana with 
respect to meat as a delicacy, and also, I think, nutrias 
trapped for fur. But the problem is that this is an exotic 
specie that does not have a very strong market at all and the 
fur market is a very weak one. Most of the exporting of these 
pelts would go to those very countries that are having 
difficulty economically.
    With your indulgence, I could call in Dr. Robert Colona, 
who knows a bit more about this if you wish to go into further 
depth with the question you've asked.
    But we've assessed it from the State of Maryland and it 
just simply isn't practical at all and it would not create a 
market for us.
    Mr. Saxton. Then the answer is taking the nutria population 
out via some form of trapping. Is that----
    Dr. Taylor-Rogers. That is correct.
    Mr. Saxton. Is that correct? What kind of traps would be 
used?
    Dr. Taylor-Rogers. I would have to defer to Dr. Colona on 
that one, if I might, please.
    Mr. Saxton. Why don't you come over, so the recorder can 
hear you, if you don't mind?
    Dr. Colona. The pilot project is designed to investigate 
all the commonly used traps out there now, from foothold traps; 
instant kill traps; caged traps; blow traps. Each one of those 
will be evaluated for efficiency, impacts on non-target 
species, and general control characteristics. At this point in 
time we don't know. That's one thing we have to investigate. We 
don't know what the most efficient technique is.
    Mr. Saxton. Does hunting hold any possibilities?
    Dr. Colona. Under very specific circumstances you can 
harvest a lot of them in a very short period of time. But those 
circumstances only occur sporadically throughout the year so 
you can't base any eradication efforts solely on hunting. It's 
got to be a marriage of a lot of different techniques.
    Mr. Saxton. Are these nocturnal animals or are they around 
during the daytime or both?
    Dr. Colona. They're more dependent on the tides than they 
are on day or night. You can find them out during the day, you 
can find them out at night. In the winter time when it's very 
cold you tend to find them out during the day. They're laying 
out sunning themselves.
    Mr. Saxton. Adaptable little devils, aren't they?
    Dr. Colona. Very much so. They're like furred cockroaches.
    Mr. Saxton. This guy seems to be very well behaved, by the 
way.
    Let me turn to Mr. Gilchrest at this point. I guess, I want 
to ask you all and I guess Mr. Gilchrest will do this--it will 
be interesting for me to know at least how we can be helpful 
because this is obviously a very significant problem. Mr. 
Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I just have a few 
questions. You mentioned they were in eight counties. Are those 
eight counties on the Eastern Shore?
    Dr. Taylor-Rogers. A number of them are on the Eastern 
Shore, that is indeed correct, but we've also seen some 
evidence on the Western Shore as well.
    Mr. Gilchrest. Where would that be on the Western Shore?
    Dr. Taylor-Rogers. In the Patuxent, to my knowledge, and 
there may be other areas that are not coming to mind right now. 
And Potomac.
    Mr. Carowan. Both the Patuxent and the Potomac.
    Mr. Gilchrest. Patuxent River and the Potomac River?
    Mr. Carowan. And the Potomac River.
    Mr. Gilchrest. So on the Eastern Shore are they north of 
Dorchester? Could they be as high as Kent County?
    Dr. Colona. We have established populations from Kent 
Island South to the Virginia line.
    Mr. Gilchrest. Because I think I've seen one at Turner's 
Creek but I'll have to look a little more close. It wasn't a 
beaver; sure wasn't a possum. Do they have a--do they have a 
very narrow range of habitat or are they more like an 
opportunistic type of creature where they could live outside 
of--Kent County is not like Dorchester County in the extent of 
its marsh or wetlands, so could they adapt to an area on Kent 
County?
    Dr. Colona. We found that they possess more latitude in 
their habitat or they're able to utilize a larger latitude of 
habitats than initially thought. Typically, they were thought 
of as a brackish-water estuarian species, but now we find them 
up into our freshwater systems; they're in wet forested areas, 
and we also have them coming up now into some of our croplands. 
We get crop damage complaint.
    Mr. Gilchrest. Is the habitat here giving this range, 
similar to where they came from in South America?
    Dr. Colona. There's some overlap but it isn't identical.
    Mr. Gilchrest. Where did they come from? Which country?
    Dr. Colona. A couple of different countries in South 
America: Venezuela, Bolivia, Argentina.
    Mr. Gilchrest. But their habitat down there was similar 
to----
    Dr. Colona. Yes, it's a similar wetland ecosystem. There's 
some overlap, ours varies a little bit.
    Mr. Gilchrest. What was--can you identify the difference 
between what Maryland is going to do or wants to do with what 
the program has been for some time in Louisiana?
    Mr. Carowan. I'm sorry, sir.
    Mr. Gilchrest. The program, they have a program in 
Louisiana, apparently for some time partially funded by the 
Federal Government, State government, so on, dealing with 
nutria. This program that we're looking to begin here, how is 
it similar or different from what they've already been doing in 
Louisiana?
    Mr. Carowan. My information is fairly limited about 
Louisiana but what I understand there is the funding that 
Louisiana has received they're putting directly into means to 
deal with the fur industry as well as to explore other uses of 
nutria. This program is entirely different than that and what 
we're looking at is trying to take this opportunity while these 
animals are somewhat isolated to the Eastern Shore and the 
population is still small in regards, in comparison to the 
Louisiana population, to eradicate these animals.
    Mr. Gilchrest. We're looking simply to eliminate them from 
the landscape completely.
    Mr. Carowan. We're looking to remove the image of nutria 
from Maryland.
    Mr. Gilchrest. Why, why is it--yes, ma'am?
    Dr. Bounds. I'd just like to add a little bit to what Glenn 
Carowan said. We have talked with biologists in Louisiana and 
they are trying to exploit the restaurant market, trying to 
make nutria an exotic table cuisine. We've talked about that in 
our task force and we don't think that would go over very well 
in Maryland for a couple of reasons.
    First of all, there's a strong seafood industry and most 
folks who visit and vacation on the Eastern Shore want to eat 
seafood and not a rat.
    And second, I've lived on the shore for a long time and 
I've found that most local folks don't even want to eat the 
native muskrat. So there's not much chance the locals would eat 
nutria.
    Mr. Gilchrest. But you don't think you could make nutria 
taste like a crab cake?
    [Laughter.]
    Dr. Bounds. I haven't found that recipe yet.
    Mr. Gilchrest. We can make catfish taste like crab cake but 
I guess that would really be a stretch.
    Dr. Bounds. One other point about Louisiana is that they're 
not trying to completely eradicate nutria. Louisiana is 
atempting to control nutria, and we are hoping to eradicate 
nutria.
    Mr. Gilchrest. I see. Is there a reason the population has 
remained? Is it because of the geographic location or the 
population in Maryland has remained relatively small compared 
to the population in Louisiana?
    Mr. Carowan. Probably the No. 1 thing that we tend to see 
is that these animals are all in the northern part of the range 
on the Atlantic seaboard and the cold weather does have a 
tremendous impact on nutria because they are a South American 
species.
    Mr. Gilchrest. So the map up here, those States in the red 
have nutria?
    Mr. Carowan. The States in the red have nutria, and as 
you'll see up there, we also have nutria up as high as 
Michigan, but I'm not sure under what circumstances or when 
those were reported. One of the things that we're trying to do 
now through the co-op unit is to readdress that with every 
State that's on that map and also with all the refuges that are 
represented within those States, to get a better handle on just 
how serious the problem is. The map means there are nutria in 
Michigan, not necessarily that they have a major problem.
    Mr. Gilchrest. Are they in Michigan or Oregon or Washington 
or Idaho because they were brought in to expand the trapped in 
species or----
    Mr. Carowan. That's my understanding. Yes, sir.
    Mr. Gilchrest. Along around the same period of time?
    Mr. Carowan. Yes, sir. Actually, between 1899 and the early 
1940's is when nutria were brought into just about all those 
States.
    Mr. Gilchrest. I see. I just have a couple more questions, 
Mr. Chairman. I see you turned the lights off.
    How many acres of marshland--Dr. Baldwin, you mentioned the 
restoration project for wetlands and something they'll have to 
get over up here is creating another beach replenishment 
project. I know this is not beach replenishment, but if we're 
looking at a long--we look at--and I understand the problems of 
the nutria and the tidal marsh and the wetlands destruction. 
But also there is land subsidence and sea-level rise. If you 
take the nutria out of the picture, which I hope we can do in 
the next few years. But then you can't take out land subsidence 
and you can't take out sea-level rise, would it be prudent to 
continue to pursue the restoration of the marsh which might be 
eliminated down the road anyway.
    Dr. Baldwin. Well, that's right, you can't control sea-
level rise or land subsidence directly but there are techniques 
where you can increase or help the marsh keep pace with sea-
level rise and one of these is to put in additional sediment. 
Down in Louisiana they're doing things like using this thin 
layer deposition technique I talked about, and also diverting 
the Mississippi River into some areas to get more sediment in 
there so the marshes can keep pace with sea-level rise.
    I personally think it's important--I mean you're right, 
this is something that's going to be, sea-level's going up. But 
I think it's important to maintain this habitat as much as we 
can, especially if we need to dredge canals and we need to 
dispose of this material somehow, let's put it to some good use 
and create a marsh.
    Mr. Gilchrest. I would agree there is a problem all over 
the country, especially in Maryland where you put the dredge 
material and if it can be of some beneficial use all the 
better. There is though, in certain areas of Maryland, when you 
put the dredge material on the land, especially upland, the 
chemical make-up of the dredge material or the sediment under 
water is different than when you transfer it up into the open 
air, and then it can become a problem with releasing certain, 
you know, whatever acidic mate-

rials, certain heavy materials that would have to be--how would 
you deal with that?
    Dr. Baldwin. That's exactly right. When soils are flooded 
the iron in it is in a reduced state because there's no oxygen. 
You take it out and you dry it out the iron becomes oxidized, 
essentially rusts, and that can lead to the formation, 
especially in saline soils where there's a sulphate source like 
saltwater soils, can actually form sulfuric acid. In a wetland, 
a salt marsh, the soil is saturated enough that they're still 
reducing and so iron is still in a reduced form in a wetland. 
So if you create a wetland that is still saturated soil, you're 
not going to have a problem with any sulfur being oxidized.
    Mr. Gilchrest. So as long as it's in these wetlands that 
leaching----
    Dr. Baldwin. That's not going to be a problem because 
they'll still be reduced. Now if you created a pile that was 
dry, say a few feet out of the water, that's exactly right and 
that's what can happen with conventional dredging when you make 
big piles of dredge spoil, you have that same reaction going 
on.
    Mr. Gilchrest. Do you have an estimate as to the number of 
acres at least in Blackwater that would have to be restored 
right now?
    Dr. Baldwin. I'm not sure but if you look at those two 
maps, what was there I guess in 1938 on the left and then that 
big open area. A lot of that open area is very shallow water 
and so it only needs a little bit of sediment but it needs some 
sediment. In this program we're, through this experimental 
approach, hoping to restore a maximum of 30 acres, it would 
probably be somewhere around 15 to 20 acres that would actually 
get restored.
    Mr. Gilchrest. So as part of this whole nutria elimination 
program, is the restoration of about 30 acres of wetland?
    Dr. Baldwin. That's for the pilot program, yes.
    Mr. Gilchrest. And the pilot program would cost--this whole 
pilot program, is there an estimate to the cost?
    Dr. Taylor-Rogers. This particular portion of it or the 
whole thing?
    Mr. Gilchrest. I guess the whole thing. How many--do you 
have an estimate as to the number of years it's going to take 
to eliminate nutria and are those number of years a part of 
the--I guess, the pilot project then is going to take how long 
to figure out what to do I suppose and then what's the 
estimated cost?
    Dr. Bounds. The pilot program is scheduled for 3 years and 
during that time we hope to look at the feasibility of complete 
eradication of nutria and marsh restoration. And we would like 
to point out that by simply removing nutria you are slow down 
marsh degradation. However, to bring back those areas that have 
suffered from severe nutria eat-out, we think we do need to go 
ahead with wetland restoration, that's why we've included the 
demonstration project.
    Mike Haramis has found on his exclosure study that some of 
the vegetation comes back, as you see in the poster, but in 
areas that have been severely overgrazed, you have to do 
something more aggressive than just remove the nutria. You have 
to also add back some soil to raise the elevation of the marsh 
so that the plants can come back.
    And to answer your question, the total cost for the 3 year 
pilot would be $2.9 million. We also have contributions of 
almost $1 million from the 17 partners. So the total effort 
would be about $4 million.
    Mr. Gilchrest. But you're looking for about 2-something 
from the Federal Government?
    Dr. Bounds. Two point nine million.
    Mr. Gilchrest. I see. Is there anybody, any other State--
has any other State had an elimination program?
    Dr. Bounds. We are conducting a survey of all 50 States and 
focusing on all the State agencies for natural resources and 
the national wildlife refuges within the States shown in red on 
this map, to find out how they're managing nutria. To our 
knowledge, at this time, there are no other plans in States to 
eradicate nutria.
    Mr. Gilchrest. What will be done with the trapped nutria? I 
mean I understand in past years you've trapped or killed up to 
10,000 of these little critters. Is there a specific policy as 
to what you're going to do with these trapped nutria in this 
program?
    Dr. Colona. A large portion of the animals will be 
necropsied and used to obtain data to further this research. 
Now we'll be----
    Mr. Gilchrest. They'll be, they'll be what?
    Dr. Colona. They'll be necropsied. We'll look at 
reproductive tract----
    Mr. Gilchrest. What was that word? I want to learn this 
word.
    Dr. Colona. OK. On humans it's autopsy; on animals it's 
necropsy.
    Mr. Gilchrest. Necropsy?
    Dr. Colona. Yes. We will necropsy the animals, look at 
reproductive tracts----
    Mr. Gilchrest. So you have a thousand, 10,000; you're going 
to necropsy how many of that?
    Dr. Colona. A representative sample, a large sample. The 
rest of them will be----
    Mr. Gilchrest. So what will the--I mean, so you get--I'm 
just curious now because I have a question. You get 10,000; you 
necropsy 100?
    Dr. Colona. You can necropsy 10 percent.
    Mr. Gilchrest. Ten percent, you necropsy 1,000; you've got 
9,000 of these things. Seriously, can they be processed at a 
local processing plant and then sent to Joseph's House in 
Salisbury or some other place? If it's meat and it's edible, 
can it be distributed in that manner?
    Dr. Baldwin. I think it could be. I actually have had the 
opportunity to eat nutria down in Louisiana and I enjoyed it.
    Mr. Gilchrest. Can you tell us what it tastes like?
    Dr. Baldwin. I could say it tastes like chicken, but that's 
the obvious answer. It's actually a light meat and these 
animals just eat plants so it's a clean meat, they're running 
wild, it's very low fat. I know that Paul Prudomme and his 
sister are trying to come up with a recipe to try and further 
it. It's not--they have a nutria festival there, but still not 
big because they call----
    Mr. Gilchrest. Dorchester has a nutria festival?
    Dr. Baldwin. No, this is down in Louisiana.
    Mr. Gilchrest. Oh, I wondered why I hadn't gone to that.
    Dr. Baldwin. But they serve nutria and that sort of thing. 
But it's still not even popular down in Louisiana as a food 
because they still call it swamp rat or nutria. They don't--I 
think the concoction that Prudomme came up with called 
``Ragondin etoufee,'' which sounds a lot better but----
    Mr. Gilchrest. I think it would be at least--then I'll 
close up my questions. The chairman is being very lenient with 
me.
    Sarah, do you have a comment?
    Dr. Taylor-Rogers. Might I respond also? We do have a, 
although albeit it's more plentiful, we have a program where we 
provide deer, venison, in our hunting program to various areas 
that could use the meat to help feed the hunger or to help 
others and I think we could also look into that as well as a 
State with respect to nutria.
    Mr. Gilchrest. I'm sure it might be worth--now I suppose 
the program only affects Blackwater refuge. No other spot in 
Maryland?
    Mr. Carowan. Oh, no, sir. In terms of the pilot program?
    Mr. Gilchrest. Yes.
    Mr. Carowan. No, sir. The pilot program is actually just 
using the refuge as one of three sites.
    Mr. Gilchrest. Oh, I see.
    Mr. Carowan. We are particularly interested, as you will 
hear later, also for looking at Tudor Farms, which is a private 
site, and they have done a lot of work on their own and are a 
significant contributing partner to this effort. And we're also 
looking at the State area on Fishing Bay Wildlife Management 
Area that's managed by Maryland DNR. So we're kind of looking 
at three different sites throughout Dorchester County.
    Mr. Gilchrest. So eventually we're looking to eradicate 
nutria in the State or, the State of Maryland, that Delmarva 
Peninsula, this region?
    Mr. Carowan. That's correct.
    Mr. Gilchrest. Often the chairman of the full Committee 
brings moose meat on the House floor. Maybe Jim and I could 
bring nutria sometime in the future before the session's over.
    [Laughter.]
    And it might become possible in Washington. Thank you, Mr. 
Chairman.
    Mr. Saxton. Let me just ask Dr. Rogers a question. I get 
the feeling that--not only the feeling--I mean you've carefully 
stated that the program is an eradication program not a 
population control program--and then I get the feeling in 
another court, you know, when we're talking about creating a 
market for the meat or whatever, that you would rather not, I 
just get this feeling, you haven't said this, that you would 
rather not be involved in that because in some ways it runs 
counter to an eradication program. In other words, if you 
create a market there's a reason to keep some of these guys 
around and you don't want to do that. Is that correct?
    Dr. Taylor-Rogers. That is correct. I'll be clear in my 
answer, and the reason why is the resources that so depend upon 
the Blackwater area for their very life cycle and sustenance, 
could very well continue to be endangered if we do not 
eradicate the nutria from this area. And it is those resources 
that are native to Maryland and native to the Delmarva 
Peninsula that are important to try to maintain, protect and 
manage over a non-native specie.
    I hope that is a clarification.
    Mr. Saxton. Yes, ma'am, that's very clear and I think 
that's very helpful. Now what Mr. Gilchrest, who has been the 
real leader here in Congress on this issue would like to do is 
to be helpful as possible and he has drafted legislation that I 
think you're aware of. Is that correct?
    Dr. Taylor-Rogers. I have heard that he has drafted it. I 
haven't seen it but I have heard he has. Yes.
    Mr. Saxton. OK, well, it's a fairly simple bill that goes 
to support your program which provides for a Federal share not 
to exceed 50 percent of the total cost of the program and that 
the local shares can be in the form of income contributions and 
will authorize the Appropriations Committee to appropriate 
whatever the amount of money is that's needed. And that is the 
approach that you're looking for and that's what you want us to 
do in a general sense. Is that correct?
    Dr. Taylor-Rogers. Yes, we are indeed and you had asked how 
can the Committee be helpful, that is indeed what we're looking 
for by way of help. And we will also as a State, be trying to 
secure some additional supplemental funds to help out with this 
as well.
    Mr. Saxton. Thank you. I have no further questions at this 
time and we thank you very much for coming and articulating the 
issues so eloquently for us and helping me as a non-Marylander 
to understand. I can only hope that we never have them on the 
New Jersey Coast. So we'll try to help you get rid of them in 
Maryland so they don't move further north.
    Dr. Taylor-Rogers. Thank you kindly.
    Mr. Saxton. OK, well, thank you and some other members may 
have some additional questions for you and we may ask you to 
respond to some in writing so the hearing record will remain 
open.
    Now let me introduce our second panel. On Panel two we have 
Dr. Edward Soutiere, president and manager of Tudor Farms, 
Inc.; Mr. Richard Pierce, director of operations for the Great 
Lakes and Atlantic Region office of DU, one of my favorite 
organizations; and Mr. James Rapp, director of the Salisbury 
Zoological Park.
    As you gentlemen are taking your places at the table behind 
your sign let me just reiterate that in the interest of our 
schedule and time we have allotted each of you 5 minutes for 
your opening statement and that your entire statement will be 
included in the record should you desire.
    And so, sir, Doctor, you may begin at your leisure.

 STATEMENT OF EDWARD C. SOUTIERE, PRESIDENT AND MANAGER, TUDOR 
                          FARMS, INC.

    Dr. Soutiere. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Gilchrest, my name is Ed Soutiere. I am manager of Tudor Farms. 
Tudor Farms is a privately owned wildlife management area and 
hunting preserve located on the Transquaking and Chicamacomico 
River watersheds upstream of the Blackwater River and Fishing 
Bay marsh complexes. I manage the farm's 5,500 acres for a 
vari-

ety of wildlife both upland and wetland species, but managing 
for waterfowl is our priority.
    Our 2,400 acres of tidal marsh and 200 acres of manmade 
freshwater wetlands are important habitat to thousands of 
ducks, geese and shorebirds. All the tidal marsh upstream and 
immediately downstream of Tudor Farms is privately owned, and 
all of this marshland is either owned by waterfowl hunt clubs, 
leased to waterfowl hunters by the owners, or hunted on by the 
owners themselves. Today this Committee is addressing the loss 
of valuable wetlands at the Blackwater National Wildlife Refuge 
caused in part by the nutria. I welcome this opportunity to 
remind the Committee that private owners of wetlands in 
Dorchester County, Maryland are suffering the same losses and 
damage and that we too are interested in finding a solution.
    In the 9 years that I have managed Tudor Farms, 500 acres 
of vegetated tidal marsh have converted to mudflats and open 
water. Marsh loss is greatest, averaging 30 percent to 40 
percent in the in the broad marsh expanses adjacent to the 
Transquaking and Chicamacomico Rivers, and least in the narrow 
headwater marshes of the creeks feeding into these rivers. 
Early on my staff and I recognized that nutria were damaging 
the marsh with their feeding and traveling activities. In 
addition, nutria feed in our crop fields and landscape 
plantings, and dig and burrow in our water control dikes and 
structures causing thousands of dollars of damage annually. I 
might also add that last year our veterinarian bills for our 
hunting dogs was $2,000, that is they had confrontations with 
nutria and it took that much to put them back together again.
    Hoping to control, if not reduce, the population of nutria 
on Tudor Farms, I opened the farm to trapping by several local 
trappers in 1992. These trappers were of course most interested 
in trapping muskrat, raccoon and fox for which there is a good, 
strong fur market. There is no market for the fur of nutria in 
Maryland, so I gave the trappers the cash incentive of $1.25 
for each nutria killed. In 1995 Tudor Farms awarded a research 
grant to the University of Maryland Eastern Shore to study the 
nutria on Tudor Farms and to determine what if any effect, the 
trapping was having on the nutria population. The graduate 
student, Lara Ras, who conducted the research will complete her 
program of study at the University of Maryland Eastern Shore 
this fall and Ms. Ras is also sitting in the audience.
    At this time, I can tell you that the number of nutria 
trapped or shot each trapping season since 1992 has remained 
relatively stable at about 5,000 per year. The estimates of 
nutria numbers on Tudor Farms have also remained stable at 
17,000 to 24,000, or 7 to 10 nutria per acre of marsh. This 
means that at best we have succeeded in removing only 25 
percent of the nutria population each year. For nutria, which 
reach sexual maturity at 6 months of age and which can have two 
or three litters of four or five young per year, this is no 
control at all.
    I have concluded that traditional trapping during the 4-
month fur-bearer season in Maryland cannot alone control nutria 
numbers. Furthermore, the removal of 25 percent of a nutria 
population each year is insufficient to arrest the loss of 
vegetated marshland.
    Eradication, a much more difficult objective than control, 
is a desirable goal for Maryland if we are to have any hope of 
retaining our valuable tidal marshes. But eradication would 
require the dedicated effort of a professional staff working 
full-time and year-round for several years and some help from 
Mother Nature to achieve. Public support for the eradication 
effort will be essential, for as Dr. Gosling noted during his 
1994 seminar at Tudor Farms on the subject of the United 
Kingdom nutria eradication program, in the eradication program 
``the only nutria you are paying for is the last one.''
    Tudor Farms will support the pilot project, ``Marsh 
Restoration: Nutria Control in Maryland'' with contributions of 
cash and in-kind assistance. We have a vested interest in 
maintaining a healthy wetland system in the Chesapeake Bay. I 
believe our neighbors share our interest. I urge this Committee 
to support the funding request for the proposed pilot project. 
We clearly need to move quickly to find and develop techniques 
to save and restore our fast vanishing marshlands.
    I thank you for the opportunity to speak here today.
    [The prepared statement of Mr. Soutiere may be found at end 
of hearing.]
    Mr. Saxton. Doctor, thank you very much.
    Mr. Pierce.

  STATEMENT OF RICHARD B. PIERCE, DIRECTOR OF OPERATIONS FOR 
  DUCKS UNLIMITED, INC.S GREAT LAKES/ATLANTIC REGIONAL OFFICE

    Mr. Pierce. Good afternoon, Mr. Chairman and Congressman 
Gilchrest. My name is Richard Pierce, and I am director of 
operations for Ducks Unlimited Great Lakes and Atlantic 
Regional Office. My staff and I are responsible for delivering 
Ducks Unlimited's conservation programs along with the mid-
Atlantic coast.
    Ducks Unlimited is the largest non-government waterfowl and 
wetland conservation organization in the world, having more 
than a million supporters. Since its founding in 1937, Ducks 
Unlimited has raised more than $1 billion to conserve over 
eight million acres of critical wildlife habitat in all 50 
States, eight Canadian provinces, and key areas in Mexico.
    Since 1987, Ducks Unlimited has worked with State, Federal 
and private conservation partners to restore, protect and 
enhance over 40,000 acres of wetlands and associated habitat 
within the Chesapeake Bay watershed. In May 1997, we announced 
our Chesapeake Bay initiative, a joint partnership with the 
Chesapeake Bay Foundation and other partners, to restore 
wildlife habitat on an integrated landscape approach and 
improve water quality by reducing sediment and nutria loading 
into the Chesapeake Bay. This initiative is an ambitious effort 
to restore over 90,000 acres of wildlife habitat and raise some 
$20 million to support our conservation efforts and the efforts 
of our State and Federal partners. Through this initiative we 
have been working with the U.S. Department of Agriculture and 
Interior to implement conservation programs including the 
Partners for Wildlife Program, Conservation Reserve Program, 
Wetlands Reserve Program, and the Wildlife Habitat Incentive 
Program.
    The tidal marshes of the Chesapeake Bay provides habitat 
for over 1 million wintering waterfowl which accounts for 
approximately 35 percent of all waterfowl wintering in the 
Atlantic Flyway. Species of continental importance including 
the American Black ducks, Canvasback, Leser and Greater Scaup, 
and the Atlantic Population of Canada Geese. In addition to 
waterfowl, the Bay's ecosystem support over 2,700 species of 
fish and wildlife.
    As you have heard from previous testimony, nutria, an 
introduced exotic species, have caused severe damage to the 
tidal marshes of the Chesapeake Bay. Due to the dependence of 
large populations of waterfowl and other wildlife on these 
affected ecosystem, Ducks Unlimited finds that controlling 
nutria populations and restoring tidal wetlands is a priority 
for our Chesapeake Bay initiative. Impacts to tidal marshes are 
a result of several factors, including sea level rise, land 
subsidence, erosion and nutria. Nutria are large herbivore that 
feed directly on the vegetation that provides structure to a 
marsh. Their impacts result in a change in the vegetative 
composition of an emergent marsh, and even the total loss of 
the marsh to open water. In either case the vegetative 
communities are altered and productive waterfowl and wildlife 
habitat is lost.
    Nutria feeding habitats create a highly erosive conditions 
and leave the marsh pitted with holes and swim channels and 
often void of vegetation. The primary food source for nutria is 
three square bulrush. That same bulrush is also a favorite and 
valuable food for wintering waterfowl. The loss of this 
vegetation component leads to a reduction in the vertebrae 
populations which migratory waterfowl readily depend upon.
    Additionally, increased rates of erosion in concert with 
rising sea levels and the increase in the hydroperiod or 
flooding regime of the marsh, which limits the ability of three 
square bulrush and other plants to regenerate a site. The swim 
channels through the marsh also permit the tidal inundation of 
many isolated and interior ponds that support submerged aquatic 
vegetation. The increase in salinity and turbidity limits the 
growing conditions for submerged aquatic vegetation, and has 
reduced many interior ponds to barren mud flats. Submerged 
aquatic vegetation is an important food source for migrating 
and wintering waterfowl, especially the American Black duck, a 
species of priority concern in the Atlantic Flyway.
    The restoration of tidal wetlands is an important component 
of our Chesapeake Bay Initiative. Tidal wetland systems are 
some of the most productive ecosystems in the world, supporting 
thousands of aquatic and terrestrial species, including many 
that are threatened and endangered. Maryland has lost over 73 
percent of its original wetlands making the remaining wetlands 
vital to maintain the health of the Bay's ecosystem.
    Unfortunately, large expanses of Maryland's remaining 
marshes have been degraded by nutria. Therefore, Ducks 
Unlimited supports this plan and its goal of controlling nutria 
populations and restoring marsh habitat. We also support the 
plan's efforts to study alternative restoration techniques in 
order to minimize cost and in-

crease restoration effectiveness once it begins. Controlling 
nutria is just one step in slowing the rate of marsh loss in 
Chesapeake Bay. Restoration projects should also be implemented 
as soon as possible in order to study restoration techniques 
and to establish demonstration projects that educate the public 
on the importance of these coastal marshes.
    Mr. Chairman, members of this Committee, thank you for your 
time and attention. I have provided a copy of my written 
testimony and ask that it be included in the record.
    [The prepared statement of Mr. Pierce may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Pierce. That was very 
informative and articulate testimony and we appreciate it.
    Mr. Rapp.

   STATEMENT OF JIM RAPP, DIRECTOR, SALISBURY ZOOLOGICAL PARK

    Mr. Rapp. Thank you, Mr. Chairman, Congressman Gilchrest. 
My name is Jim Rapp and I'm director of the Salisbury 
Zoological Park in Salisbury, Maryland. I've worked for the zoo 
for 10 years serving in a number of capacities including the 
zoo's education director.
    The Salisbury Zoo has been a member of the American Zoo and 
Aquarium Association, the AZA, since 1972, and has an annual 
attendance of about 250,000 visitors including 15,000 local 
school children.
    The Salisbury Zoo appreciates the opportunity to testify 
before the Committee on the pilot program proposal. The zoo 
supports this proposal and expects to be an integral partner in 
carrying out the educational mission of the proposal.
    As I am the last speaker today, my comments will focus on 
the educational impacts of introducing exotic species to our 
Nation's ecosystems, and the importance of educating the public 
to prevent further destruction of Maryland wetlands.
    Exotic species introductions, whether intentional or 
unintentional, seem to be an inevitable result of human 
activities which may result in both economic and ecological 
problems. It has been estimated that over 90 percent of all 
such introductions have been harmful in some respect. As U.S. 
Fish and Wildlife Director Jamie Clark said, ``invasive species 
tend to be very adaptive, aggressive and resilient. Once they 
are established, we are unlikely to ever completely eradicate 
them.'' In fact, Mr. Chairman, this last past Sunday, CNN aired 
a new segment from their ``Earth Matters'' program called 
``Invader Animals'' that illustrated the devastating effects of 
exotic species in the U.S.
    The United States has been the unfortunate recipient of 
exotic species since colonial times but the problem has grown 
to new heights during this century. In the late 1920's the 
migration of the sea lamprey into the Great Lakes began its 
reign of terror on populations of lake trout. Since that time 
our Nation has been in a constant battle to prevent either the 
spread of established exotic species or the introduction of new 
ones. However, one species in particular, the zebra mussel, 
truly heightened the dangers of exotic species to local 
ecosystems and what is necessary to prevent fur-

ther damage. The zebra mussel was unintentionally introduced 
into the Great Lakes during the 1980's through untreated 
ballast of ships and in less than 10 years it has established 
itself throughout the Great Lakes to Mississippi River, and 
many other of our national waterways. The zebra mussel has 
caused tens of millions of dollars in damage through filtration 
systems throughout these areas and at the same time has 
smothered populations of native clams, mussels and other 
aquatic life.
    In addition to zebra mussels, exotic species such as the 
gypsy moth and pine boring beetle, have caused billions of 
dollars in damage to our forests, fields and waterways as well 
as our agriculture and timber industries. Other exotic species 
affect a number of ecosystems by displacing native species such 
as the exotic mute swan, the giant reed known Phragmites, and 
the devastating brown tree snake. The brown tree snake was 
introduced to Guam in the late 1940's aboard military 
equipment. The snake has since then spread throughout the 
formerly snake-free island, eating the majority of Guam's 
native bird population. The result: there are no more native 
birds in the wild on Guam and the forest is eerily silent. The 
brown tree snake's devastation is also felt throughout 
Micronesia. Two critically endangered species, the Guam Rail 
and the Micronesian kingfisher are the focus of a breeding 
program and recovery plan involving the Department of the 
Interior and 30 institutional members of the American Zoo and 
Aquarium Association. Hopefully, these two species can be 
returned to their native island habitat someday.
    In an effort to preserve native ecosystems and species that 
depend on them and to curb the adverse effects of exotic 
species introductions, biologists have recommended numerous 
methods of population control and sometimes complete 
eradication of exotic species.
    The State of Maryland, particularly the Eastern Shore of 
Maryland, finds itself with a serious nutria problem. Mr. 
Chairman, as the Committee is well aware, the Chesapeake Bay 
and the wetlands of the Eastern Shore are recognized as some of 
the most important ecological areas in the United States and 
have received global recognition as wetlands of international 
importance under the Ramsar Convention Treaty. Maryland's 
wetlands are used for fishing, hunting, trapping, berry and 
timber harvesting, and the growing interest in bird-watching 
and outdoor photography. The Salisbury Zoo has been an active 
partner in developing ecotourism on the Eastern Shore to the 
promotion of the Delmarva Birding Weekend, and the creation of 
the Delmarva Birding Guide. The Wetlands in this area are home 
to hundreds of species of animals and plants and serve as 
important or nursery sites for many thin fish and shell fish. 
These wetlands are also vitally important to over one million 
waterfowl that winter in the Chesapeake Bay or use it as part 
of their migration. Resource managers fear that without 
intervention the significant ecological, cultural and economic 
benefits of wetlands in Maryland will be completely lost within 
the next decade.
    While it is important to confront the threats of develop, 
erosion, and agricultural runoff to Maryland wetlands, dealing 
with the exotic nutria can be perhaps an easier task. The goal 
of the Nutria Control Program is to develop methods and 
strategies to control nutria populations, restore marsh habitat 
and promote public understanding of the importance of 
preserving Maryland's wetlands. The pilot program for control 
and eventual eradication of nutria will also be extremely 
beneficial in preventing future species from being added to the 
Endangered Species Act, especially if the nutria continues its 
conquest of wetlands habitat in the U.S. The primary mission of 
the Salisbury Zoo is to increase the public's awareness and 
appreciation of wildlife and encourage citizens to become 
active in conservation efforts. The zoo would be a natural 
partner with Blackwater National Wildlife Refuge and other 
members of the public education committee, for sharing 
information about the significance of wetlands restoration and 
nutria control.
    I believe this proposal is a good practical first step in 
trying to better understand the scope of nutria problem in the 
Blackwater watershed, and how to best take on this destructive 
adversary. An ounce of prevention is indeed worth a pound of 
cure, and weighing the cost of long-term nutria destruction and 
the cost of this pilot program, I believe the answer is clear.
    Thank you for allowing me to testify in support of the 
proposed pilot program for marsh restoration and nutria 
control.
    [The prepared statement of Mr. Rapp may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Mr. Rapp. I'm particularly 
pleased that you spoke of other non-indigenous species that 
have been either introduced intentionally or unintentionally 
throughout not only our country but some other parts of the 
world as well. It seems to me that what we're experiencing here 
can be a lesson that we should take very seriously. So thank 
you for your testimony.
    I would also like to make note that Mr. Greg Linscombe who 
is the programs manager, Fur and Refuge Division of Louisiana 
Department of Wildlife and Fisheries is here with us today and 
has submitted some testimony which I ask unanimous consent be 
included in the record.
    [The prepared statement of Mr. Linscombe may be found at 
end of hearing.]
    Mr. Saxton. And I think it's noteworthy, this problem, 
along with being an Eastern Shore problem is obviously a 
horrendous problem in Louisiana as well. This testimony says in 
part that the control of nutria in Louisiana is among the top 
priorities for the State of Louisiana, where over 3.3 million 
acres of coastal wetlands now exist. Wetland damage in 
Louisiana attributable to nutria is now conservatively 
estimated to exceed 80,000 acres in the South East portion of 
the state.
    So this is, indeed, a very serious problem and one that 
this member and I know, Mr. Gilchrest, take very seriously. 
We've been chatting here during the last hour or so about how 
to proceed and I don't know that we have come to any firm 
conclusion except to say that we are going to put the finishing 
touches to Mr. Gilchrest's bill or he is and then we will 
proceed in an expedited fashion to deal with it through this 
Committee and on the floor of the House.
    Mr. Gilchrest, do you have any questions at this time for 
this panel?
    Mr. Gilchrest. Just a few, Mr. Chairman. Thank you.
    Dr. Soutiere, it's good to see you again. We haven't seen 
each other for quite a few years now.
    Dr. Soutiere. You again, sir.
    Mr. Gilchrest. Family doing all right?
    Dr. Soutiere. They're doing well.
    Mr. Gilchrest. I guess the kids are grown up now.
    Dr. Soutiere. Well, Shawn, we finally got him out of 
college.
    Mr. Gilchrest. You did? I have two still in college but 
they're about ready to--one more year.
    Dr. Soutiere. Thank you for asking.
    Mr. Gilchrest. Shawn's doing all right?
    Dr. Soutiere. Yes.
    Mr. Gilchrest. That's great. Tell him I said hi. I taught 
Shawn in high school.
    Dr. Soutiere, this nutria population, has it impacted or 
reduced the population of opossum on Tudor Farms, or raccoons 
or fox or anything? Have they displaced any of those other 
animals?
    Dr. Soutiere. It has not displaced any of the uplands 
species which you happen to have listed. There's some sense 
that the muskrat has declined as the nutria numbers have 
increased. Trappers certainly are not catching as many muskrat 
on our marshes as they did historically. I can't point that 
there's any direct antagonism between the two species but 
certainly they're occupying similar habitats and eating the 
same kinds of plants. And I would say when nutria eats its 
dinner muskrat doesn't get a chance to eat it.
    Mr. Gilchrest. You said, did you say that there can 
sometimes be pretty violent conflicts, confrontation between 
the nutria and hunting dogs?
    Dr. Soutiere. I have had both staff injured and my dogs 
have been injured. Dogs of course don't know better and will 
attack nutria cornered. They're very aggressive. You can see 
that the long incisors on that mounted nutria in front of you. 
They cut and slash. They're very capable of defending 
themselves and I've had one employee who, he boxed in a nutria 
so I guess in a way you could say he put the animal on the 
defense, tore right through his hip boots and made a pretty bad 
gash wound in the upper thigh. They're capable of defending 
themselves.
    Mr. Gilchrest. Are there any beaver down there at Tudor 
Farms?
    Dr. Soutiere. There are no beaver on Tudor Farms.
    Mr. Gilchrest. You also mentioned, is there a difference 
between the hide of muskrat, opossum, raccoon, nutria that 
makes nutria not a very profitable hide to sell?
    Dr. Soutiere. Very definite differences. Probably the best 
to compare is with the muskrat and the nutria. The muskrat has 
a thicker fur, it's finer, denser. The fur of the nutria tends 
to be quite coarse and has a longer guard hairs and the only 
good hair, a good portion of the fur tends to be on the belly 
so if there is any market it's only for a small portion of the 
actual pelt. In recent years there's been no economic market to 
speak of for the nutria. The fur industry and the fur market 
for fur coats has been weak in general.
    Mr. Gilchrest. Has there ever been any reports of nutria 
with rabies?
    Dr. Soutiere. Not to my knowledge, no.
    Mr. Gilchrest. This is a little off the subject but is 
there a phragmite problem in Tudor Farms?
    Dr. Soutiere. We don't have a problem per se because we've 
aggressively attacked phragmites. We spend about $25,000 a year 
controlling phragmites. I guess you could say that's a problem. 
But it's certainly not like the Delaware marshes where it's 
totally taken over. Ours is limited to smaller pockets and 
we're aggressively going after it.
    Mr. Gilchrest. Are you aware of nutria living--I would 
guess Delaware has a similar problem or at least some problem. 
Can nutria--and I'm not suggesting this as an alternative----
    [Laughter.]
    Dr. Soutiere. You're about to ask me if we eat phragmites.
    Mr. Gilchrest. No, can nutria live in, within phragmites 
given the difference between that and marsh grass and what 
Doctor, Mr. Pierce has referred to as----
    Dr. Soutiere. Square bulrush. Three-square bulrush.
    Mr. Gilchrest. Three-square bulrush.
    Dr. Soutiere. Only three square. Three square. Only three 
square is the preferred food of both the nutria and the 
muskrat. Nutria certainly live in phragmites stands but we see 
very little evidence that they do much grazing on the root 
tubers of phragmites. Certainly not enough to do any damage to 
it unlike the damage they do to the three square marshes.
    Mr. Gilchrest. We're in a 3-year, I think we're in the 
third year going into the fourth year of a moratorium on Canada 
goose hunting based on the population.
    Dr. Soutiere. On the migratory----
    Mr. Gilchrest. On the migratory Canada goose. Have you seen 
any change in the population of Canada goose in and around 
Tudor Farms in the last three, 4 years?
    Dr. Soutiere. I can read that question two ways: The 
migratory----
    Mr. Gilchrest. Totally academic. I just want migratories. 
I'm not concerned with the----
    Dr. Soutiere. The migratories, we saw a very nice increase 
in the numbers of migratory birds during the last fall 
migration. Now our resident flock of geese are rapidly 
approaching nuisance numbers.
    Mr. Gilchrest. Really?
    Dr. Soutiere. Yes.
    Mr. Gilchrest. Another pilot program. We'll get Duncan 
Hunter down there, turning the animals. The whole posse.
    A couple of other quick questions. Mr. Pierce, what would 
be--and I know someone mentioned in their testimony that the 
stamp, part of the money from the stamp program would be 
contributed to the Nutria Elimination Program. Was I correct 
when I heard that?
    Mr. Pierce. The comment was from the lady from Maryland and 
I believe she was referring to the waterhouse stamp issued by 
the State of Maryland.
    Mr. Gilchrest. What would be Ducks Unlimited's contribution 
to the Nutria Eradication Program?
    Mr. Pierce. Our contributions would primarily be in the 
restoration field in restoring the marshes and both our 
technology and expertise here.
    Mr. Gilchrest. So then you would work with Dr. Baldwin from 
the University of Maryland in that program that he described?
    Mr. Pierce. That's correct.
    Mr. Gilchrest. How have you restored--you mentioned 
restoring 40,000 acres of wetlands in the Chesapeake Bay 
Watershed. Could you give us some idea how that process went? 
How you restored some of those wetlands? Was it through 
mitigation system, was it restoring wetlands that had been 
drained or filled in the past?
    Mr. Pierce. A couple of different approaches. The first 
approach would be working with private land owners to restore 
impacted wetlands on their property at their wish and their 
desire; providing again technical assistance and monetary 
assistance; helping the natural resources, conservation service 
deliver those programs throughout the Susquehanna River 
drainage, through all the States impacted there. And also 
working on the public-owned marshes with our Federal and State 
partners to do restoration work on those marshes.
    Mr. Gilchrest. Has that been a pretty successful operation? 
Much resistance? Pretty good working relationship with Federal 
and State agencies and private land owners?
    Mr. Pierce. Very good, particularly with our partners in 
the Chesapeake Bay Foundation and the Federal and State 
partners included so a great number of people are interested in 
this area and are working very well.
    Mr. Gilchrest. I would suppose then you would agree with 
the total elimination policy of the nutria?
    Mr. Pierce. Absolutely. Absolutely.
    Mr. Gilchrest. Have you seen an increase in the laboratory 
county goose population in the last few years?
    Mr. Pierce. The Atlantic population has recovered, not 
fully recovered, but has rebounded very well. Last fall we had 
very good fall flights and we're not going to recommend or 
we'll not be increasing hunting. But yes, a very good increase 
and an explosion in the locals and that created confusions 
amongst people living in the area.
    Mr. Gilchrest. So you said your recommendation would be 
to--now the moratorium was three to 5 years and I think we're 
going into our fourth year.
    Mr. Pierce. I believe the Fish and Wildlife Service has 
said they will continue for one more year with it.
    Mr. Gilchrest. So do you agree with that assessment?
    Mr. Pierce. We agree with the Fish and Wildlife Service's 
recommendations.
    Mr. Gilchrest. Thank you.
    Mr. Rapp, Salisbury Zoo, do you have any live nutria down 
there?
    Mr. Rapp. We have in the past and we've discussed it as 
part of a South American exhibit but not a native Eastern Shore 
exhibit. Don't want to give people that impression.
    Mr. Gilchrest. So are you going to have a display of 
nutria?
    Mr. Rapp. We discussed it. We're doing a master plan right 
now for the zoo that we really want to focus. Our collection is 
based on north and South American wildlife which is fairly 
interesting as to the nutria problem and we've exhibited them 
in a South American context before. We'd like to bring them 
back in, especially with this program being introduced, it 
would be very beneficial for local school children to see what 
they look like and create an awareness.
    It is a bit of an issue, you know, talking to children 
about basically eradicating an animal but conservation and 
ecology is what we talk about in zoos. It goes beyond just an 
appreciation for living things. Very interested in exhibiting 
nutria again but just females.
    Mr. Gilchrest. You couldn't put a little display next to 
that, you know, cage where the nutria would reside with a 
little table there and some kind of a hot sauce, whatever they 
use. A sample.
    Mr. Rapp. A sample table.
    Mr. Gilchrest. A sample table.
    Mr. Rapp. We sure could. Could be a good fundraiser for us. 
I don't know.
    Mr. Gilchrest. They could come in with a little tooth pick.
    Mr. Rapp. On a tooth pick?
    Mr. Gilchrest. Do you have any--would you say that the 
pilot program as you understand it is--I guess you would agree 
with--would you agree with elimination?
    Mr. Rapp. Yes, I would. I go to Blackwater frequently, 
birdwatching and wildlife viewing. It's a tremendous growing 
industry in our area and just the effects, as has been 
demonstrated by most folks up here, of what nutria can do to a 
marsh would severely destroy a lot of the opportunities we have 
done there for wildlife viewing and that is, we're beginning 
that market now.
    We've been very pleased with the responses we've had. Not 
just the zoo and other partners in promoting, not just 
birdwatching, but canoeing, kayaking and the like and you don't 
want to canoe through a nutria marsh. What are you going to 
look at? But you want to go through a healthy--only you see a 
lot of adversity.
    Mr. Gilchrest. What do you see are the Salisbury's Zoo's 
contribution to this project?
    Mr. Rapp. We'd like to develop a program focused toward 
school children and adults as well, but a program dealing with 
the subject of introduced species. We do that quite a bit as it 
is right now. We have a program actually adopted through a 
National Wildlife Federation Environmental Education Manual 
called ``Invaders in Paradise'' that deals with introduced 
species on Hawaii, and it's actually a play that kids do that 
takes about 15 minutes.
    You start off in the pristine era of Hawaii a couple of 
hundred years ago, you bring in the rats and the pigs and the 
goats and all these animals don't belong there. And Hawaii is a 
great case in point. I believe it's about 50 percent of their 
birds are endangered right now and they lost 50 percent, 
extinct. Island species is a little bit more sensitive on 
occasion than some of our species in the 48 States but 
nonetheless it's a very serious problem on the island nation as 
well as on the Eastern Shore, but it really gives kids an idea 
that this isn't part of what the national system is all about.
    You mentioned very well in your earlier statements, about 
tying in machinery of nature and nutria just don't fit. Not up 
here they don't.
    Mr. Gilchrest. Thank you very much, Mr. Rapp, Mr. Pierce, 
and Dr. Soutiere. We welcome your input and we'll do what we 
can on this level to help everybody out down there, Great State 
of Maryland plus the Eastern Shore. Thank you gentlemen, very 
much.
    Mr. Saxton. Thank you, Mr. Gilchrest. Let me just pause to 
discuss one other issue that has been raised here on a couple 
of occasions and that is the local Canada goose issue. I guess 
I learned a while back that in as much as this is a sub-
species, it wasn't necessarily indigenous to the Eastern part 
of the country. Is that what you understand, Mr. Pierce?
    Mr. Pierce. That's correct. The giant Canada geese were 
reintroduced by Fish and Wildlife agencies throughout the upper 
midwest and the east coast.
    Mr. Saxton. They were indigenous to the upper midwest?
    Mr. Pierce. Yes.
    Mr. Saxton. But not to the east coast?
    Mr. Pierce. Mr. Chairman, I can't answer that. I don't 
think so but that's a guess.
    Mr. Saxton. In my lifetime I've seen different patterns 
seemingly exist. One pattern is the one that you've mentioned 
about the, what do you call them, an epidemic of local geese or 
something like that. In addition to that, I've always been 
curious. When I was a young adult, I think we almost had to go 
to the Eastern Shore if we wanted to see or hunt Canada geese 
and then over a decade or two all of a sudden I guess 
determined short stop in New Jersey and Pennsylvania, that 
seems to me to be a different pattern even with regard to the 
migratory species. Is that correct?
    Mr. Pierce. The Giant Canadas basically don't migrate.
    Mr. Saxton. The Giant Canadas are what we refer to as 
local?
    Mr. Pierce. As local, yes, and the migratory birds, their 
pattern has been impacted by these resident geese who stay 
there, who attract and hold the migratory birds also by changes 
in agriculture that's opened up the landscape and made good 
wintering areas in the upper midwest and in further northern 
areas with farm ponds and large reservoirs constructed by man 
and also in part by the refuge systems.
    Mr. Saxton. So the introduction of a non-indigenous 
species, or what we believe is probably a non-indigenous 
species, the Giants, had an effect on the life patterns of the 
migratory birds? You surmise?
    Mr. Pierce. I'm not sure I could say that but probably. The 
Canadas colonized this area on their own. I'm not sure they 
were even brought into this area. They were introduced in the 
upper midwest and I think have expanded to these areas.
    Mr. Saxton. I see.
    Mr. Gilchrest. Jim, if I could give you an unscientific 
perspective. I think Mr. Pierce is right when he said the 
changes in agriculture when they went from growing tomatoes on 
the Eastern Shore to growing wheat, they had inefficient 
combines, they left a lot of corn on the ground and things like 
that. So that the migratory birds, instead of going to North 
Carolina, they begin to stop more often on the Eastern Shore 
and then since then, you know change in climate and patterns 
and, I remember, and then the change of some of these Canada 
migratory birds stopping in New Jersey, Pennsylvania and New 
York, mild winters and the whole thing.
    But I think it was the change of agriculture that really 
began the migratory birds from stopping, or started them 
stopping on the Eastern Shore.
    Mr. Saxton. Thank you very much. I'd like to thank you for 
your insights and also Mr. Gilchrest for his great effort on 
this nutria problems. Members of the Subcommittee may have some 
additional questions for the witnesses and we will ask you to 
respond to them in writing. The hearing record will be kept 
open for 30 days for your responses. If there is no further 
business, the chairman again thanks the members and the 
Subcommittee, and our witnesses as well.
    The Subcommittee stands adjourned.
    [Whereupon, at 3:46 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Glenn A. Carowan, Jr, Refuge Manager, Blackwater National 
 Wildlife Refuge, Cambridge, Maryland, United States Fish and Wildlife 
                  Service, Department of the Interior

    Mr. Chairman, I appreciate this opportunity to be here 
today to discuss the Fish and Wildlife Service' efforts, along 
with many other interested parties, to control nutria at 
Blackwater National Wildlife Refuge and elsewhere. I began my 
career with the U.S. Fish and Wildlife Service (Service) 28 
years ago at Mattamuskeet National Wildlife Refuge (NWR) in 
North Carolina, and after many other assignments became manager 
at Blackwater NWR in June 1989.
    Damage caused by nutria is a major problem at Blackwater 
and elsewhere in Maryland and in the southern United States. 
Tidal, fresh-to-brackish water marshes along the Eastern Shore 
of Maryland are some of the most biologically productive, 
ecologically valuable, and economically important habitats in 
the United States. Unfortunately, they are disappearing at an 
alarming rate. Since 1938, thousands of acres of brackish 
tidal-marshland, dominated by Olney three-square bulrush 
(Scirpus americanus) and other emergent plants, have been 
degraded and converted to open-water habitat along Maryland's 
lower Eastern Shore.
    Marsh losses may be most severe on and around the 
Blackwater National Wildlife Refuge in Dorchester County, which 
currently includes approximately 10,000 acres of combined 
vegetated marsh and open-water habitat. Refuge biologists 
estimate that over 7,000 acres of vegetated marsh have been 
lost along the Blackwater River in the past half century, and 
that the rate of loss has accelerated substantially during the 
past decade (as much as 500 acres a year in recent years). 
Resource managers fear that these wetlands, which provide 
significant ecological, cultural, and economic benefits, will 
continue to disappear at an increasing rate unless prompt 
action is taken.
    The Olney three-square bulrush that dominates these 
habitats on Maryland's Eastern Shore is a vital component of 
the brackish tidal-marshes. The rhizomes of these plants form a 
dense root mat that retains sediments and stabilizes the marsh. 
The structural integrity provided by these root mats promotes 
habitat diversity and determines the functional qualities of 
the marsh. These coastal marshes provide extraordinarily 
valuable ecological services and human benefits. For example, 
decomposing marsh plants provide detritus that supports the 
food-web of the Chesapeake Bay estuary. Commercial and non-
commercial fish and shellfish depend upon the efficient 
transfer of primary to secondary production that occurs in 
these marshes, and many species depend upon these habitats as 
feeding and nursery grounds. Approximately 35 percent of all 
migrating waterfowl in the Atlantic Flyway depend on these 
marshes as resting and feeding sites. Bald eagles fish and 
scavenge the marshes to support the largest nesting population 
of this species north of Florida on the Atlantic Coast. A half 
billion dollar a year sport fishing industry is directly linked 
to the productivity of Maryland's marshes, as is an impressive 
commercial blue crabbing, oystering, and fishing industry which 
is also valued in the millions of dollars.
    Costanza and Farber, in their report on ``The Economic 
Value of Wetlands in Terrebone Parish Louisiana'' estimated the 
value of the coastal marshes to be $28,200/acre/year for all 
types of economic benefits and recreational activities. Based 
on the Louisiana estimate, the 10,000 acres of existing and 
potentially recoverable marshland on Blackwater Refuge can 
therefore be estimated to be worth about $282,000,000 a year 
(for all types of economic uses and benefits including, but not 
limited to, sport and commercial fishing, hunting, wildlife 
observation, and a wide variety of ecotourism activities). 
However, such economic assessments, while important to the 
economic well-being of Maryland, do not begin to account for 
the myriad of other ecological functions provided by these 
marshes such as nutrient removal, erosion and flood water 
control, improved water quality, and exceptional wildlife 
habitat. The health and stability of Chesapeake Bay wetlands 
contributes directly to the quality of life for Maryland 
residents.
    The decline of these tidewater marshlands along Maryland's 
lower Eastern Shore and the resultant adverse environmental, 
economic, and cultural effects may be due to several factors; 
however, recent acceleration in marsh loss appears to be 
directly related to increases in populations of nutria 
(Myocastor coypus). Nutria are alien, non-indigenous species 
that are highly invasive. These semiaquatic rodents are 
equipped with long front teeth and powerfully clawed feet that 
enable them to excavate the root-mat and devour up to 25 
percent of their body weight a day. Nutria often grow up to 3-
feet long, and can weigh up to 30 pounds. They are extremely 
prolific animals, reach sexual maturity at four to six months, 
breed year-round, and produce average litters of four to five 
offspring, two or three times a year. Picture a pack of brown 
Pac Men with a taste for precious marshland, and you have a 
fairly good concept of nutria.
    Nutria are indigenous to South America; their original 
range was in Argentina, Bolivia, Brazil, Chile, Paraguay, and 
Uruguay. Fur-farming introductions extended that range into the 
United States between 1899 and 1940 with introductions into 
California, Washington, Oregon, Michigan, New Mexico, 
Louisiana, Ohio, and Utah. But fur-farming attempts failed due 
to high mortality rates and low reproductive success in 
captivity. Many of the nutria were freed into the wild when the 
businesses failed in the late 1940s. State and Federal agencies 
and individuals translocated nutria into Alabama, Arkansas, 
Georgia, Kentucky, Maryland, Mississippi, Oklahoma, Louisiana, 
and Texas with the intent that nutria would control undesirable 
vegetation and enhance trapping opportunities. Nutria were also 
sold as ``weed cutters'' to an unsuspecting public throughout 
the Southeast, and a hurricane in the late 1940s scattered 
nutria over wide areas of coastal Louisiana and Texas.
    Accidental and intentional releases have thus led to 
widespread and localized feral populations in 22 states and 
Ontario, and to reports of sightings in at least 40 states and 
three Canadian provinces in North America. The other states 
with established populations include Delaware, Florida, Idaho, 
Missouri, North Carolina, and Virginia. Range expansion of this 
highly adaptive rodent seems to be limited only by extreme 
cold. All national wildlife refuges and wildlife departments in 
the 22 states with established nutria populations are currently 
being surveyed to determine nutria abundance, habitat damage, 
and management activities.
    The first recorded introduction of nutria in Maryland 
occurred in 1943, although it is probable that nutria were 
first released in Maryland's lower Eastern Shore marshes in the 
late 1930s. The Fur Animal Station on the Blackwater National 
Wildlife Refuge was in operation from 1939 to 1947, and during 
that time nutria were reared in captivity for experimental 
purposes. In 1943, nutria reportedly escaped from the pens. In 
the spring of 1951 and summer of 1952, adjacent landowners 
released 5 pair of nutria on Coles Creek marsh and 20 nutria on 
Gibbs marsh at Meekins Creek, respectively. In 1956, refuge 
personnel were instructed to remove nutria from the refuge by 
any means available. During 1957-59, it appeared that the 
nutria population on the refuge was under control.
    However, during these years, nutria populations on 
adjoining private marshlands exploded, and animals eventually 
found their way onto the refuge once again. From 1962 through 
1968, the population on the refuge was estimated at less than 
150 nutria per year. But the population made a giant leap in 
1969 to an estimated 2,075. By 1976, the population had 
expanded even further, and 2,894 nutria were harvested on the 
refuge. The total harvest of Maryland nutria fluctuated between 
1,500 and 5,000 from 1971 to 1976. During the 1976-77 trapping 
season, the harvest peaked at a record 29,679 (due to increased 
market, ideal trapping conditions, and trapper interest.) In 
the winter of 1976-77, an estimated 90 percent of the Maryland 
population froze to death during a prolonged period of freezing 
in January and February of 1977. The population quickly 
recovered, and by the late 1980s State-wide estimates were 
higher than ever before. From 1990 through 1997, 35,000 nutria 
were killed on Blackwater Refuge alone. On Tudor Farms, an 
adjoining privately owned tract in Dorchester County, between 
4,000-5,000 are harvested annually. The current refuge 
population is estimated to range from 35,000-50,000, but there 
is the need for more rigorous studies to validate these 
numbers.
    Alarmingly, nutria numbers and their range appear to be 
increasing and expanding, as considerable amounts of marsh 
damage is occurring and there are numerous new sightings on the 
western shore in the Patuxent and Potomac Rivers.
    The story is very similar, but even worse in Louisiana 
where thirteen nutria were released in 1937; by the late 1950s 
that population was estimated to exceed 20 million animals. 
Populations in the United States are most dense along the Gulf 
Coast of Louisiana and Texas. In Louisiana, autumn densities of 
about 18 animals per acre have been recorded in freshwater 
marshes. In Oregon, summer densities in freshwater marshes may 
be as high as 56 animals per acre, while on Blackwater Refuge, 
population densities range from 1 to 6 animals per acre (with 
3.3 animals per acre being the average during the last 
population survey in 1995).
    Nutria have devastating effects on marsh vegetation because 
they forage on rootstalks and excavate entire plants. At 
Blackwater, 80 percent of their diet is composed of three-
square bulrush. The result is that they not only denude the 
marsh, they also destroy the root mat that is the structural 
fabric holding the marsh Together. Furthermore, nutria fragment 
the marsh with innumerable swimming canals, which serve to 
focus tidal currents and promote erosion, leading to the 
lowering of the marsh and conversion of emergent marsh to open 
water. Nutria, however, are not limited to causing damage to 
the marshlands. In many states, they are also responsible for 
damage to forested wetlands, bald cypress restoration efforts, 
agricultural crops, and levees. Nationwide, nutria may pose 
significant ecological and economic impacts.
    While nutria may be the dominant factor contributing to 
marsh loss, it is likely that other forces, including increased 
salinity (due to land subsidence and sea-level rise), play a 
role in determining the ecological structure and function of 
these tidal marshes. Resource managers have little power to 
control land subsidence, sea-level rise, and salinity changes, 
but nutria populations can be controlled for the benefit of the 
marsh ecosystem. Therefore, an effective plan to preserve and 
restore these fragile brackish tidal-marshes and their 
ecological, cultural, and economic values must involve efforts 
aimed at eradicating nutria; wetland restoration efforts would 
be severely jeopardized if nutria were allowed to continue 
foraging.
    Accordingly, 17 Federal, state, and private organizations 
have joined forces since 1993 to develop a plan to determine 
the feasibility of eliminating nutria from Maryland. The 
initial phase of this effort, entitled ``Marsh Restoration: 
Nutria Control in Maryland,'' is based upon years of 
collaboration among the partners; input from private 
landowners, trappers, watermen, scientists, marsh ecologists, 
and animal control experts; recommendations from private and 
agency wetland restoration experts; and recommendations from 
Dr. L.M. Gosling, a world renowned nutria expert from Great 
Britain. Dr. Gosling planned and supervised Great Britain's 
successful 1O-year nutria eradication program, and was invited 
to visit the Eastern Shore by the Maryland Department of 
Natural Resources in 1994.
    His recommendations have helped guide many of our efforts 
to date. Based on both his successes and failures in Great 
Britain, he recommended that the first strategy should be to 
confirm that nutria were the primary cause of the extensive 
damage to the marshland ecosystem. To accomplish this, he 
recommended that a series of enclosures be randomly erected in 
the Blackwater/Fishing Bay marshes to measure the impact of 
nutria damage, and to demonstrate the ability of the marsh to 
recover. This research activity has been conducted in a joint 
effort between the State of Maryland's Department of Natural 
Resources and U.S. Geological Survey's Patuxent Wildlife 
Research Center. Mr. Michael Haramis will testify to the 
details of this study, ``The Effect of Nutria (Myocastor 
coypus) on Marsh Loss In The Lower Eastern Shore of Maryland: 
An Exclosure Study.'' Preliminary results of the study indicate 
that nutria are indeed greatly accelerating marsh loss.
    Secondly, Dr. Gosling strongly recommended that a pilot 
eradication scheme be designed to help estimate the size of the 
trapper force required, and to gain more information on nutria 
behavior and movements to help plan trapping tactics in more 
extensive marshland areas. Dr. Gosling also recommended that we 
test a trapping organization, establish the strategic 
deployment of trapping effort based on catch per unit effort, 
evaluate trapping techniques on target and non-target species, 
determine changes in reproduction as population size changes, 
and develop public awareness about the need to control nutria 
within Maryland (and other areas of the country). The proposed 
pilot program includes all these recommendations, and 
additionally includes an experimental wetlands restoration 
demonstration project. Several of our partners have agreed to 
help in educating the public about the importance of nutria 
eradication.
    The pilot program, a copy of which I am providing for the 
record, has generated high hopes for halting marsh loss. In 
answer to the question, ``Is it possible to eradicate nutria in 
Maryland?'', Dr. Gosling's assessment is that ``a number of 
factors make the prospects of eradication in Maryland even more 
likely than they were at a comparable stage in England. These 
include a more efficient trapping technique, better mobility 
over water, and lower population fecundity. Experience in 
England has shown that it is possible to eradicate a 
substantial nutria population over a large area of wetland 
habitat, and given the successful resolution of the issues (in 
the pilot eradication scheme discussed above), there is no 
impediment to eradication.'' Dr. Gosling concludes by saying, 
``On balance, the factors favoring eradication outweigh 
potential obstacles, and it could be possible to complete the 
task more quickly than in England.''
    The National Wildlife Refuge System exists for the 
protection and management of plants and animals native to the 
United States. The policy of the Service is to prevent further 
introduction of exotic species on national wildlife refuges, 
and to protect trust resources from the adverse impacts of 
competing with exotic species. Therefore, in addition to being 
extremely important to the future of Blackwater National 
Wildlife Refuge, the information gained from the pilot program 
will also be applicable to other refuges within the National 
Wildlife Refuge System (NWRS), to state-managed areas, and to 
private marshlands throughout the United States and the world. 
The Maryland Cooperative Fish and Wildlife Research Unit at 
University of Maryland Eastern Shore is currently surveying all 
state wildlife agencies and other units of the NWRS to 
determine the extent of the nutria problem in an effort to work 
cooperatively to help address these concerns and educate the 
public on the national level.
    If successful, this program will certainly help Blackwater 
and other national wildlife refuges achieve the mission of the 
NWRS and the purposes for which these individual units were 
established by Congress. The severity of marsh loss and the 
adverse effects of nutria foraging and burrowing on our 
forested and emergent wetlands, agricultural areas, dikes and 
levees, waterfowl management impoundments, water control 
capabilities, moist soil management areas, and wetland 
restoration efforts are seriously compromising our ability to 
achieve our wildlife management objectives, adversely affect 
the function and productivity of our marshes, disrupt or change 
cultural activities, significantly harm economic benefits, and 
have long-lasting environmental consequences as previously 
noted. Accordingly, we believe that this proposed pilot effort 
is extremely important to the future welfare of the migratory 
birds, anadromous fish, and endangered species which the Fish 
and Wildlife Service has been entrusted to manage for the 
benefit of the American people.
    This concludes my formal statement. I appreciate this 
opportunity to appear before you, and will be pleased to 
respond to any questions you may have.
                                ------                                


  Statement of G. Michael Haramis, Research Wildlife Biologist, U.S. 
 Geological Survey, Patuxent Wildlife Research Center, Laurel, Maryland

    The purpose of this testimony is to provide information 
that is relevant to the conservation of the nation's natural 
resources, and in particular the wetlands of the Blackwater 
River Basin and adjacent rivers and specifically those wetlands 
now part of the U.S. Fish and Wildlife Service's Blackwater 
National Wildlife Refuge, Dorchester County, Maryland. I have 
been familiar with these wetlands and the marsh loss issue 
since arriving in Maryland in 1976 when I started my employment 
as a Research Wildlife Biologist at the Patuxent Wildlife 
Research Center, now part of the Department of the Interior's 
U.S. Geological Survey. For the past 3 years, I have been 
directly involved with the problem of marsh loss in two 
capacities: first, as a research scientist conducting a 
cooperative study with the State of Maryland's Department of 
Natural Resources and the Blackwater National Wildlife Refuge 
to investigate the role of exotic nutria (Myocastor coypus) in 
the loss of emergent marsh vegetation, and secondly, as a 
member of a multi-agency task force, including Federal, state, 
local, and private organizations, to develop a pilot nutria 
control proposal for Maryland. In reference to these 
activities, I offer the following comments.

NUTRIA: A BRIEF HISTORY

    As brief background, the South American nutria became a 
subject of attention in the fur industry back in the early 
1930s when their large size and high reproductive potential 
held promise for fur farming businesses in North America. Many 
hopeful investors started small captive colonies in many 
locations in the United States, Canada, and many European 
countries. Many of these farms, however, did not succeed and 
the animals either escaped or were released to the wild. In 
some locations feral animals died when released into unsuitable 
habitat or exposed to severe winter weather. However, nutria 
populations did develop and persist in many areas. A survey 
conducted in 1983 found viable populations in 15 states and one 
Province of Canada; a 1994 survey found nutria in 22 states. 
Our multi-agency task force is currently conducting a new 
survey to update this information.
    In Louisiana and Maryland marshes, escaped nutria found a 
suitable natural environment, both a rich food base and 
favorable climate, and large populations developed as a 
consequence. Maryland's population is relatively small in 
comparison to Louisiana where the annual harvest was about 1 
million pelts annually in the mid-1980s.
    With few natural predators and a decline in fur demand, 
nutria populations have at times experienced severe 
overpopulation. These periods of overpopulation have brought 
severe damage to marshes through the animal's intense feeding 
on emergent plants. Over time, resource managers recognized 
that these populations could not be controlled or managed by 
traditional harvest methods because of (1) lack of harvest 
incentive (inferior fur quality, declining fur markets) and (2) 
the animal's own high survival (lack of predators) and 
remarkable productivity. Nutria may reproduce throughout the 
year depending on food availability and climate; they may 
produce 3 litters per year and average 5 young per litter.
    Nutria also are not popular with trappers: in comparison to 
the native muskrat (Ondatra zibethicus) they are too large to 
carry, hard to skin and only a portion of the fur is of value. 
Average-sized nutria are 8-18 pounds (4-8 kilograms) or 5-10 
times the size of muskrats. Where the larger, more aggressive 
nutria has become abundant, the muskrat has declined through 
competitive displacement. Nutria are semi-aquatic surface 
feeding herbivores that can be extremely destructive to marsh 
vegetation. Their beaver-sized incisors and powerful forefeet 
allow them to forage directly on the marsh root mat, leaving 
the marsh pitted with holes and deep swim canals. No other 
marsh herbivore as large and destructive to wetland vegetation 
as nutria has ever existed in the Blackwater Basin during the 
entire development of these marsh ecosystems in the post-
glacial period.

ROLE IN MARSH LOSS

    At the Blackwater National Wildlife Refuge, Olney three-
square bulrush (Scirpus americanus) is the food plant of choice 
for nutria. Results of a recent study on the refuge found a 
loss of 3,500 acres of mostly Olney marsh to open water since 
1938; 53 percent of remaining marsh was considered in unhealthy 
condition and likely to be lost in the near future. Why is this 
marsh disappearing and what role do nutria play in this event 
and in the continuing process of marsh loss?
    It is my view that while other factors may also be 
contributing to marsh loss, nutria are the primary force that 
has accelerated the rate of marsh loss in this basin by 
attacking the very structure that holds the marsh together, the 
vegetative root mat. The root mat has been especially critical 
because much of the marsh in the Blackwater Basin is a type of 
floating marsh above a layer of fluid mud. Once the nutria chew 
through the mat and expose the mud to erosional forces of tidal 
current and wave action, the marsh surface sinks and the 
vegetation is lost to inundation. The particular vulnerability 
of the interior marsh to nutria damage is likely the reason why 
marsh loss did not occur near the mouth of the Blackwater River 
(source of rising water), but in the interior basin many miles 
up-river where this delicate Olney marsh was under attack by 
foraging nutria.
    It is likely that stress from marsh inundation reduces 
plant vigor by inhibiting plant germination, growth, ability to 
recolonize denuded areas, or recovery from nutria grazing. 
Clearly, plants that are stressed from too much water from 
flooding are unable to recover from damage by nutria. It is 
impossible to accurately reconstruct past events and there are 
many other subtle factors continuing to operate that affect the 
health of the marsh. Nonetheless, it is my opinion that nutria 
foraging activity likely initiated and certainly greatly 
accelerated the rate of marsh loss in the Blackwater Basin. I 
conclude that an overabundance of nutria is the major factor in 
the observed rapid conversion of emergent marsh to open water 
along the Blackwater River.

THE NUTRIA EXCLOSURE STUDY

    In 1995 I became directly involved with the marsh loss 
issue when I began a cooperative study with the Maryland 
Department of Natural Resources and the Blackwater National 
Wildlife Refuge to investigate the role of nutria in the loss 
of emergent marsh on the Refuge. My study proposed using fenced 
enclosures to eliminate nutria herbivory and measure the 
subsequent vegetative response. Specifically, this experimental 
approach would determine whether in the absence of nutria the 
marsh vegetation could stabilize and recover from nutria 
damage. Conducting this enclosure study was the first of 
several recommendations made by the British researcher Dr. L.M. 
Gosling, who assessed Maryland's nutria/marsh loss issue at the 
request of the Maryland Department of Natural Resources in 
1994. Dr. Gosling had successfully removed nutria from a marsh 
in England in a 10-year trapping campaign that is well 
documented (see Literature Cited at the end of this report).
    In my study, large 100 x 100 ft plots were selected to 
maintain the ecological integrity of fenced plots and minimize 
physical effects of enclosure. The size of these enclosures, 
requiring over 1.4 miles of fencing, make this one of the 
largest enclosure studies of its kind. Nineteen randomly 
selected control plots and 19 paired plots (adjacent to fenced 
enclosures) were also included in the study to test for 
possible differences in nutria densities. I wanted to be 
reassured that densities at random control and random treatment 
(fenced sites) were similar. This is important because if by 
chance densities were different at the fenced and unfenced 
sites, it could bias the results of the study. Vegetative 
coverage was measured through spring and fall measurements of 
346 fixed subplots and helicopter photography of whole plots.
    Preliminary results following one growing season indicate 
that the vegetative response is as predicted, i.e. moderate 
expansion of vegetation within enclosures, and a measured 
reduction outside. Although the magnitude of this response 
within enclosures was not great, it is positive evidence that 
(1) nutria activity is contributing to marsh loss and (2) the 
marsh is showing some capability of recovering in the absence 
of nutria foraging activity. However, vegetative recovery is 
likely limited because of elevation differences between the 
vegetative surface and the adjacent denuded marsh surface. It 
is clear that the cumulative sediment transport processes are 
negative on the marsh surface (erosional) and without the 
vegetation to stabilize the marsh, the mostly organic debris 
torn up by nutria simply washes away.
    The sensitivity of the marsh surface to erosion is 
significant because it indicates that in the absence of nutria, 
only partial recovery of vegetation can be expected unless 
restoration is done to fill in eroded areas or otherwise 
augment the elevation of the marsh surface to a level conducive 
to vegetative growth.
    Damage from nutria occurs along a gradient from light to 
heavy. Plots that have lost more than 70 percent of vegetation, 
and exhibit only scattered tufts of remaining vegetation are 
essentially unrestorable without invasive procedures. Sites 
where damage has been light and little erosion has occurred, 
seem to have a good chance of recovery if protected from 
nutria. Unfortunately a large percentage of the marsh exhibits 
cumulative damage from nutria over the past several decades and 
seems to have little restoration potential because the damage 
has progressed too far. As a matter of fact, two of my plots 
completely eroded away in the early phase of the study and had 
to be relocated; 3 other plots are now on the edge of large 
areas completely denuded of vegetation. A number of growing 
seasons is required before making more definitive statements 
about recovery potential. I note that in the current year I 
have also included in my study an investigation of the effects 
of elevation change on plant recolonization. This study is 
scheduled to continue through 1999.

NUTRIA ERADICATION

    I have been a member of the nutria eradication proposal 
task force since its inception and wish to make some comments 
about the pilot control initiative. First, much of the plan was 
originally derived from recommendations from Dr. Gosling, who 
forwarded a very well formulated eradication plan to the State 
of Maryland Department of Natural Resources. Dr. Gosling is the 
only person who has experience with a large-scale, long-term 
nutria eradication program, and I might add, a successful one. 
Dr. Gosling's success is remarkable because he was constrained 
to use live traps for capturing nutria in Great Britain, and 
not the more effective traps available in the United States. 
Dr. Gosling is a research scientist and conducted his 
experiment in eradication in a systematic and well documented 
way. It is a consensus of our task force that our plan must 
also incorporate the research needed to document the process 
and especially the population effects related to removal of 
nutria. This is essential if the work is to be properly 
evaluated and documented. Also, the research component is 
essential to fill in information gaps in our knowledge, for 
instance, in determining the most effective trapping procedures 
or the best marsh restoration methods.
    I wish to mention the diverse partnership involved with 
this initiative. At last count at least 17 different partners, 
including several from the private sector, are actively 
involved in the proposal's design and in contributing time, 
equipment, facilities, and dollars. Their commitment helped to 
create a diverse base of support for the proposal.
    Lastly, the task force reached a noteworthy consensus 
during its deliberations. All members are well aware that 
although nutria have been a management problem for many years, 
no program has ever been adopted at a proper scale to address 
the issue. Thousands of acres of marsh have been lost in 
Maryland. The task force believes that marsh loss can be 
mediated by controlling and eventually eliminating nutria from 
Maryland. This concludes my statement, and I will be pleased to 
respond to any questions.

                            LITERATURE CITED

    Gosling, L.M. 1989. Extinction to order. New Scientist, 4 
March 1989:44-49.
    Gosling, L.M. 1994. Towards an eradication plan for nutria 
in Maryland, a report to the Maryland Department of Natural 
Resources. 14 April 1994. 14pp.
    Gosling, L.M., and Baker, S.J. 1987. Planning and 
monitoring an attempt to eradicate coypus from Britain. Symp. 
Zool. Soc. Lon. 58:99-113.
    Gosling, L.M., Baker, S.J., and Clarke, C.N. 1988. An 
attempt to remove coypus (Myocastor coypus) from a wetland 
habitat in East Anglia. J. Appl. Ecol. 25:49-62.
                                ------                                


   Statement of Dr. Sarah J. Taylor-Rogers, Ph.D., for the Maryland 
                    Department Of Natural Resources

    Mr. Chairman, my name is Dr. Sarah J. Taylor-Rogers. I am 
the Assistant Secretary of Resource Management for the Maryland 
Department of Natural Resources. On behalf of the State of 
Maryland, I appreciate the opportunity to address this 
Subcommittee on initiatives relating to control of expanding 
nutria populations within our State.

PROBLEM STATEMENT

    Nutria are an invasive, semi-aquatic South American rodent. 
This non-native species was first introduced into Dorchester 
County, Maryland in 1943. Nutria are a foreign addition to 
Maryland's wetland ecosystems, therefore no inherent 
biofeedback mechanisms exist to naturally control their 
populations. Consequently, succeeding population increases and 
range expansion has now resulted in established populations in 
at least 8 counties. Population estimates on the 10,000 acres 
of Blackwater National Wildlife Refuge have grown from less 
than 150 animals in 1968 to between 35,000 to 50,000 currently.
    Loss or degradation of Maryland's coastal marshes has 
reached alarming proportions. It is estimated that up to 65 
percent of our wetlands have been lost since the 1700's. Nutria 
feeding behavior damages or destroys the root mat that cements 
the marsh together. When this fibrous network is compromised, 
emergent marsh is quickly reduced to unconsolidated mudflats. 
These areas in turn are highly susceptible to erosional 
processes and are eventually converted to open water. While 
nutria are not the sole reason for marsh loss, they have been 
implicated as the catalyst that has greatly accelerated losses 
during the last decade. Annual loss rates at Blackwater 
National Wildlife Refuge are now approximately 5 percent of 
total vegetated acreage.
    Although this project focuses primarily on Blackwater NWR, 
the 10,000 acres of the refuge only represents a small portion 
of the nutria's occupied range in Maryland. Maryland's problems 
encompasses a much larger scale and scope than those described 
in this proposal. However, the accompanying scientific 
investigations are the first logical step in addressing our 
problems.
    Current efforts have evolved to the inclusive, systematic 
strategies now presented to Congress (see attached proposal). A 
brief synopsis of the labors that led to this hearing is as 
follows:

CHRONOLOGY OF APPROACH

1989

    During the mid-1980's Maryland's non-native nutria 
population exhibited seemingly exponential growth rates. 
Likewise, resident population densities, occupied range and 
accompanying marshland degradation paralleled these increases. 
This prompted the Maryland Department Of Natural Resources 
(DNR) to initiate the CUE (catch per unit effort) project in 
1989 to assess nutria population characteristics. The study 
generally supported qualitative field assessments of rapidly 
increasing populations.

1993

    DNR formed the first multi-agency nutria task force. The 
group was charged with the overwhelming responsibility of 
development or a workable approach to control of non-native 
nutria populations. Efforts of the task force resulted in 
completion of the first draft eradication plan. The concept of 
nutria eradication also received legislative support in 1993 
with the passage of Senate Bill 27. This legislation mandated 
that 50 percent of the proceeds from the sale of State duck 
stamps be designated for nutria control.
    During preparation of the 1993 plan, literature searches 
revealed that successful nutria eradication efforts had been 
completed in East Anglia, Great Britain. Under the direction of 
Dr. Morris Gosling, the Coypu (nutria) Research Laboratory, and 
the Coypu Control Organization reversed decades of futile 
efforts and eradicated the entire resident nutria population 
during the 1980's. This victorious endeavor resulted from the 
marriage of systematic applied research and field control 
activities (see attached ``Extinction to Order,'' M. Gosling). 
These successes led DNR to solicit critical review of our 
initial plan from Dr. Gosling.

1994

    Communications with Dr. Gosling highlighted the 
complexities of a large scale eradication program. Upon 
realization of the enormity of the task before us, DNR entered 
into a contractual agreement with Dr. Gosling to provide 
technical expertise in development of a revised eradication 
plan.
    Dr. Gosling completed field assessments of Maryland's 
nutria population and occupied range, and submitted his 
recommendations to DNR. He felt that eradication in Maryland 
was an achievable goal, however basic natural history and 
control strategy information had to be obtained prior to the 
implementation of control efforts.
    Dr. Goslings expertise and comments were then synthesized 
with the initial eradication plan. Project descriptions were 
developed, and resulted in production of the initial working 
concepts of our current proposal entitled ``Marsh Restoration: 
Nutria Control in Maryland.'' All of our ensuing efforts have 
closely paralleled the recommendations offered by Dr. Gosling.

1995

    Quantifiable data documenting the deleterious consequences 
of established nutria populations is critical to enlisting 
public understanding and support. Accordingly, in 1995 DNR 
entered a joint research endeavor with the U.S. Geological 
Survey, Patuxent Wildlife Research Center designed to assess 
the impacts of nutria grazing on marshland vegetative 
communities. This study entitled ``The Effect of Nutria 
(Myocaster coypus) on Marsh Loss in the Lower Eastern Shore of 
Maryland: An Exclosure Study'' has proven to be the largest 
investigation of it's kind ever initiated in a marshland 
ecosystem. Mike Haramis, the project's principle investigator 
will provide accompanying testimony on preliminary findings of 
this study.

1997

    The DNR and U.S. Fish and Wildlife Service have continually 
solicited critical input of the draft eradication plan. These 
requests led to convening of a ``Nutria Control Summit'' 
meeting in 1997. Representatives of various agencies, 
organizations, and disciplines contributed valuable insights 
and perspectives to augment the existing plan.
    As a result of this meeting, 17 governmental agencies and 
private organizations formed partnerships and appointed two 
complimentary task groups. The first was an expanded technical 
committee which was charged with refinement the draft plan's 
experimental design, and development of the three year pilot 
project. The second committee was charged with development of a 
public education campaign to cultivate support for the program.

1998

    Both of these committees have worked in unison to produce 
the proposal with which you are now presented. The attached 
document entitled ``Marsh Restoration: Nutria Control in 
Maryland'' details the specific approaches necessary to 
ultimately address control of nutria populations.

THE PLAN

    History has demonstrated that normal commercial harvest of 
nutria is not adequate to substantially reduce population 
levels. Prolific reproductive rates and adaptability in 
response to high mortality rates have allowed nutria 
populations to expand through time. Detailed records kept on a 
7,000 acre landholding adjacent to Blackwater National Wildlife 
Refuge document this phenomena. Nutria population densities and 
associated ecological damage on this parcel continue to 
increase in spite of sustained annual harvests of approximately 
25 percent to 35 percent of the total population.
    As demonstrated by Dr. Gosling, the key to successfully 
eradicating nutria is to modify existing harvest equipment and 
strategies. The information necessary to capitalize on critical 
behavioral traits and characteristics can only be obtained 
through the systematic, and quantitative investigations 
included in the attached proposal. Accurate home range, 
movement, reproductive and control equipment evaluation data is 
essential to the development of efficient harvest strategies.
    Key components of the proposal and brief descriptions are 
as follows:

        1. Impacts of nutria on marsh ecosystems (enclosure study).
        This cooperative research endeavor will quantitatively document 
        the impacts on plant species composition and densities in 
        marshland vegetative communities. This data will be employed by 
        public education personnel to garner the public support 
        necessary for an eradication project.
        2. Nutria natural history characteristics.
        (a) Temporal, spatial and gender specific home range 
        characteristics.
                A variety of techniques including radio-telemetry, mark 
                recapture, and Forward Looking Infra-red Radar will be 
                utilized by researchers to assess these behavioral 
                manifestations. A basic understanding of when, where, 
                why and how animals occur and travel is necessary for 
                control personnel to develop efficient harvest schemes.
        (b) Reproductive characteristics.
                Reproductive dynamics including age of sexual 
                maturation and failure, compensatory reproductive 
                rates, litter size, and average number of litters per 
                year are essential to predicting control personnel 
                force size and control in-

                tensity levels. Researchers will obtain this 
                information by performing necropsies on animals 
                supplied by the control unit.
        3. Pilot Control Project.
        (a) Develop and evaluate control equipment and strategies.
                Eradication based harvest schemes will require 
                evaluation and modification of existing control 
                equipment, as well as development of new and innovative 
                apparatus. Likewise, current sustained yield harvest 
                strategies will require systematic alterations. 
                Information supplied by project researchers will enable 
                control personnel to investigate and modify all of 
                these parameters.
        (b) Age and gender specific harvest characteristics.
                When population densities are reduced to a critical 
                level, harvest efficiency may dictate targeting 
                specific age classes or gender for maximum reduction 
                values. Research and control personnel will work 
                cooperatively to obtain this mutually beneficial 
                information.
        4. Marsh restoration.
        (a) Investigate recuperative capabilities of degraded marshland 
        ecosystems.
                Researchers will determine the gradient of recovery for 
                untreated marsh vegetative communities when nutria are 
                removed.
        (b) Investigate mechanical techniques for restoration of 
        severely degraded marshland ecosystems.
                Researchers will evaluate if changing elevational 
                levels of degraded marsh through the application of 
                sediments will facilitate recovery of severely degraded 
                areas. The treatments will be applied in areas with and 
                without nutria present.
        5. Public education and support.
        Information supplied by both research and control personnel 
        will be crafted by education specialist into a media campaign 
        that conveys the urgency and inherent value of the eradication 
        project to the general public.
    This body of work is the culmination of over nine years of labor by 
recognized experts in the biological science. It represents the best 
available, systematic and scientifically based approach to resolution 
of an extremely urgent problem. Thank you for your consideration.

[GRAPHIC] [TIFF OMITTED] T0341.001

[GRAPHIC] [TIFF OMITTED] T0341.002

[GRAPHIC] [TIFF OMITTED] T0341.003

[GRAPHIC] [TIFF OMITTED] T0341.004

[GRAPHIC] [TIFF OMITTED] T0341.005

[GRAPHIC] [TIFF OMITTED] T0341.006

[GRAPHIC] [TIFF OMITTED] T0341.007

[GRAPHIC] [TIFF OMITTED] T0341.008

[GRAPHIC] [TIFF OMITTED] T0341.009

[GRAPHIC] [TIFF OMITTED] T0341.010

[GRAPHIC] [TIFF OMITTED] T0341.011

[GRAPHIC] [TIFF OMITTED] T0341.012

[GRAPHIC] [TIFF OMITTED] T0341.013

[GRAPHIC] [TIFF OMITTED] T0341.014

[GRAPHIC] [TIFF OMITTED] T0341.015

[GRAPHIC] [TIFF OMITTED] T0341.016

[GRAPHIC] [TIFF OMITTED] T0341.017

[GRAPHIC] [TIFF OMITTED] T0341.018

[GRAPHIC] [TIFF OMITTED] T0341.019

[GRAPHIC] [TIFF OMITTED] T0341.020

[GRAPHIC] [TIFF OMITTED] T0341.021

[GRAPHIC] [TIFF OMITTED] T0341.022

[GRAPHIC] [TIFF OMITTED] T0341.023

[GRAPHIC] [TIFF OMITTED] T0341.024

[GRAPHIC] [TIFF OMITTED] T0341.025

[GRAPHIC] [TIFF OMITTED] T0341.026

[GRAPHIC] [TIFF OMITTED] T0341.027

[GRAPHIC] [TIFF OMITTED] T0341.028

[GRAPHIC] [TIFF OMITTED] T0341.029

[GRAPHIC] [TIFF OMITTED] T0341.030

[GRAPHIC] [TIFF OMITTED] T0341.031

[GRAPHIC] [TIFF OMITTED] T0341.032

[GRAPHIC] [TIFF OMITTED] T0341.033

[GRAPHIC] [TIFF OMITTED] T0341.034

[GRAPHIC] [TIFF OMITTED] T0341.035

[GRAPHIC] [TIFF OMITTED] T0341.036

[GRAPHIC] [TIFF OMITTED] T0341.037

[GRAPHIC] [TIFF OMITTED] T0341.038

Statement of Dr. Edward C. Soutiere, President and Manager, Tudor Farms 
                                  Inc.

    Tudor Farms is a privately-owned wildlife management area 
and hunting preserve located on the Transquaking and 
Chicamacomico River watersheds upstream of the Blackwater River 
and Fishing Bay marsh complexes. I manage the Farms' 5,500 
acres for a variety of wildlife, both upland and wetland 
species, but managing for waterfowl is our priority. Our 2,400 
acres of tidal marsh and 200 acres of man-made freshwater 
wetlands are important habitat to thousands of ducks, geese and 
shorebirds. All the tidal marsh upstream and immediately 
downstream of Tudor Farms is privately owned, and all of this 
marsh land is either owned by waterfowl hunt clubs, leased to 
waterfowl hunters by the owners, or hunted on by the owners 
themselves. Today this Committee is addressing the loss of 
valuable wetlands at the Blackwater National Wildlife Refuge 
caused, in part, by the nutria. I welcome this opportunity to 
remind the Committee that the private owners of wetlands in 
Dorchester County, Maryland are suffering the same losses and 
damage, and that we too are interested in finding a solution.
    In the nine years that I have managed Tudor Farms, 500 
acres of vegetated tidal marsh has converted to mudflats and 
open water. Marsh loss is greatest, averaging 30 percent to 40 
percent, in the broad marsh expanses adjacent to the 
Transquaking and Chicamacomico Rivers, and less in the narrow 
headwater marshes of the creeks feeding into the rivers. Early 
on, my staff and I recognized that nutria were damaging the 
marsh with their feeding and traveling activities. In addition, 
nutria feed in our crop fields and landscape plantings, and dig 
and burrow in our water-control dikes and structures, causing 
thousands of dollars of damage annually.
    Hoping to control, if not reduce, the population of nutria 
on Tudor Farms, I opened the Farms to trapping by several local 
fur-trappers in 1992. These trappers were of course most 
interested in trapping muskrat, raccoon and fox for which there 
is a fur-market. There is no market for the fur of nutria in 
Maryland so I gave the trappers a cash incentive of $1.25 for 
each nutria killed. In 1995, Tudor Farms awarded a research 
grant to the University of Maryland, Eastern Shore (UMES) to 
study the nutria on Tudor Farms and to determine what if any 
effect the trapping was having on the nutria population. The 
graduate student, Lara Ras, who conducted the research will 
complete her program of study at UMES this fall.
    At this time, I can tell you that the number of nutria 
trapped or shot each trapping season has remained relatively 
stable at about 5,000, ranging from 4,000 to 5,000. The 
estimates of nutria numbers on Tudor Farms have also remained 
stable at 17,000 to 24,000, or 7 to 10 nutria per acre of 
marsh. This means that, at best, we have succeeded in removing 
only 25 percent of the population each year. For nutria, which 
reach sexual maturity at 6 months of age and can have two or 
three litters of 4 to 5 young per year, this is no control at 
all.
    I conclude that traditional trapping during the 4 month 
fur-bearer season in Maryland cannot alone control nutria 
numbers. Furthermore, the removal of 25 percent of a nutria 
population each year is insufficient to arrest the loss of 
vegetated marshland.
    Eradication, a much more difficult objective than control, 
is a desirable goal for Maryland if we are to have any hope of 
retaining our valuable tidal marshes. But eradication will 
require the dedicated effort of a professional staff working 
full-time and year around for several years, and some help from 
Mother Nature, to achieve. Public support of the eradication 
effort will be essential for, as Dr. L. M. Gosling noted during 
his 1994 seminar at Tudor Farms on the subject of the United 
Kingdom nutria eradication program, in an eradication program 
``the only nutria you are paying for is the last one.''
    Tudor Farms will support the pilot project, ``Marsh 
Restoration: Nutria Control in Maryland.'' We have a vested 
interest in maintaining a healthy wetland system in the 
Chesapeake Bay. I believe our neighbors share our interest. I 
urge this Committee to support the funding request for the 
proposed pilot project. We clearly need to move quickly to find 
and develop techniques to save and restore our fast vanishing 
marshlands.
                                ------                                


     Statement of Richard B. Pierce, Director of Operations. Ducks 
         Unlimited, Inc.'s Great Lakes/Atlantic Regional Office

    Good afternoon Mr. Chairman and members of the 
Subcommittee. My name is Richard Pierce, I am the Director of 
Operations for Ducks Unlimited's Great Lakes/Atlantic Regional 
Office. My staff and I are responsible for delivering Ducks 
Unlimited's conservation programs along the Mid-Atlantic Coast. 
Ducks Unlimited is the largest non-government waterfowl and 
wetlands conservation organization in the world, having more 
than a million supporters. Since its founding in 1937, Ducks 
Unlimited has raised more than $1 billion to conserve over 8 
million acres of critical wildlife habitat in all 50 states, 
each Canadian province, and in key areas in Mexico.
    Since 1987, Ducks Unlimited has worked with state, Federal 
and private conservation partners to restore, protect, and 
enhance over 40,000 acres of wetlands and associated habitat 
within the Chesapeake Bay watershed. In May of 1997, we 
announced our Chesapeake Bay Initiative, a joint partnership 
with the Chesapeake Bay Foundation and other partners to 
restore wildlife habitat on an integrated, landscape approach, 
and improve water quality by reducing sediment and nutrient 
loading within the Chesapeake Bay watershed. This Initiative is 
an ambitious effort to restore over 90,000 acres of wildlife 
habitat and raise over 20 million dollars to support our 
conservation efforts, and the efforts of our state and Federal 
partners. Through this Initiative we have been working with the 
U.S. Departments of Agriculture and Interior to implement 
conservation programs, including the Partners for Wildlife 
Program, Conservation Reserve Enhancement Program, Wetland 
Reserve Program, and the Wildlife Habitat Incentive Program, to 
improve wildlife habitat and water quality across the 
Chesapeake Bay watershed.
    The tidal marshes of the Chesapeake Bay provide habitat for 
over 1 million wintering waterfowl, which accounts for 
approximately 35 percent of all waterfowl wintering in the 
Atlantic Flyway. Species of continental importance include 
American Black ducks (Anus rubripes), Canvasback (Aytha 
valisineria), Lesser and Greater Scaup (Aytha affinis, Aytha 
marila) and the Atlantic Population of Canada Geese, (Branta 
canadensis). In addition to waterfowl, the Bay's ecosystem 
supports over 2,700 species of fish and wildlife.
    As you have heard from previous testimony, nutria 
(Myocastor coypus), an introduced exotic species have caused 
severe damage to the tidal marshes of the Chesapeake Bay. Due 
to the dependence of large populations of waterfowl and other 
wildlife on these affected ecosystems, Ducks Unlimited finds 
that controlling nutria populations and restoring tidal 
wetlands is a priority for our Chesapeake Bay Initiative.
    Impacts to tidal marshes are a result of several factors 
including sea level rise, land subsidence, erosion, and nutria. 
Nutria are large herbivores that feed directly on the 
vegetation that provides structure to a marsh. Their impacts 
result in changes in the vegetative composition of an emergent 
marsh, and even the total loss of the marsh to open water. In 
either case, the vegetative communities are altered and 
productive waterfowl and wildlife habitat is lost.
    Nutria feeding habits create highly erosive conditions and 
leave the marsh pitted with holes and swim channels, and often 
void of vegetation. The primary food source for nutria is three 
square bulrush, (Scirpus onleyi). Three square bulrush is also 
a valuable food resource for wintering waterfowl. The loss of 
this vegetation component not only effects wintering waterfowl 
populations, but also leads to a reduction in invertebrate 
populations, which migrating waterfowl readily depend on. 
Additionally, increased rates of erosion in concert with rising 
sea levels increase the hydroperiod, or flooding regime, of the 
marsh, which limits the ability of three square bulrush and 
other plants to revegetate a site. The swim channels through 
the marsh also permit the tidal inundation of many isolated, 
interior ponds that support submerged aquatic vegetation. The 
increase in salinity and turbidity limits the growing 
conditions for submerged aquatic vegetation, and has reduced 
many interior ponds to barren mud flats. Submerged aquatic 
vegetation is an important food source for migrating and 
wintering waterfowl, especially American Black ducks, a species 
of priority concern in the Atlantic Flyway.
    The restoration of tidal wetlands or marshes is an 
important component of our Chesapeake Bay Initiative. Tidal 
wetland systems are some of the most productive ecosystems in 
the world, supporting thousands of aquatic and terrestrial 
species, including many that are threatened and endangered. 
Maryland has lost over 73 percent of its original wetlands, 
making the remaining wetlands vital to maintaining the health 
of the Chesapeake Bay ecosystem and the over 2 million 
waterfowl that migrate through or winter in the Chesapeake Bay 
each year. Unfortunately, large expanses of Maryland's 
remaining marshes have been degraded by nutria. Therefore, 
Ducks Unlimited supports this plan and its goal of controlling 
nutria populations and restoring marsh habitat. We also support 
the plan's efforts to study alternative restoration techniques 
in order to minimize cost and increase effectiveness once 
restoration efforts begin. Controlling nutria is just one step 
in slowing the rate of marsh loss in the Chesapeake Bay 
watershed. Restoration projects should also be implemented as 
soon as possible in order to study restoration techniques and 
to establish demonstration projects to educate the public on 
the importance of the restoration of coastal marshes.
    Mr. Chairman and members of the Subcommittee, thank you for 
your time and attention.
                                ------                                


       Statement of Jim Rapp, Director, Salisbury Zoological Park

    Mr. Chairman, Congressman Gilchrest, and Members of the 
Committee:
    My name is Jim Rapp. I am the Director of the Salisbury 
Zoological Park in Salisbury, Maryland. I have worked for the 
Salisbury Zoo for ten years serving in a number of capacities, 
including the Zoo's Education Director.
    The Salisbury Zoo is a twelve-acre facility that displays 
over 100 different species, over 350 specimens, and specializes 
in exhibiting North and South American species. The Zoo has 
been a Member of the American Zoo and Aquarium Association 
(AZA) since 1972, and has an annual attendance of 250,000 
visitors, including 15,000 local school children. The Zoo is 
also involved in a number of education programs with a sister 
zoo in Belize and a nature reserve in Mexico.
    The Salisbury Zoo appreciates the opportunity to testify 
before the Committee on the pilot program proposal entitled 
``Marsh Restoration: Nutria Control in Maryland.'' The Zoo 
supports the proposal and expects to be an integral partner in 
executing its educational mission.
    As I am the last speaker today, my comments will focus on 
the overall impact of introducing nonindigenous species to our 
Nation's ecosystems, and the importance of educating the public 
to prevent further destruction of the Eastern Shore Wetlands.
    Species introductions, whether intentional or 
unintentional, seem to be an inevitable result of human 
activities. They may result in both economic and ecological 
problems; it has been estimated that over 90 percent of all 
such introductions have been harmful in some respect. As U.S. 
Fish and Wildlife Service Director Jamie Clark said, ``Invasive 
species tend be very adaptive, aggressive, and resilient. Once 
they are established, we are unlikely to ever completely 
eradicate them.'' In fact, Mr. Chairman, this past Sunday, the 
Cable News Network (CNN) aired a new segment from its Earth 
Matters series called ``Invader Animals'' that illustrated the 
devastating effects of introduced species on local ecosystems 
and the high cost associated with controlling or eradicating 
them.
    The United States has been invaded by nonindigenous exotic 
species since the colonial period. However, in the late 1920s 
when the United States became home to the sea lamprey and 
witnessed its reign of terror on lake trout in the Great Lakes, 
we truly came to realize the destruction these species could 
cause to local ecosystems and our native species. Since then, 
it seems our nation has been in a constant state of war to 
prevent either the spread of established exotic species or the 
introduction of others. One species in particular, the zebra 
mussel, illustrates well the economic and ecological dangers of 
nonindigenous exotic species. The zebra mussel was 
unintentionally introduced into the Great Lakes ecosystem in 
the 1980s through the untreated ballast tanks of vessels, and 
in less than ten years, it has established itself throughout 
the Great Lakes region, portions of the Mississippi River, the 
Arkansas River, and Lake Champlain in New York. The zebra 
mussel has caused millions of dollars in damage to filtration 
systems throughout these areas, and has smothered populations 
of native clams, mussels, and crayfish.
    In 1990, Congress responded by passing the Aquatic Nuisance 
Prevention and Control Act. The Act created the Aquatic 
Nuisance Species Task Force to coordinate Federal and state 
agencies combating the expanding problems associated with the 
zebra mussel, as well as other introduced aquatic species. The 
Task Force is charged with developing and implementing a 
program to prevent the introduction and dispersal of aquatic 
nuisance species in U.S. waters, and to monitor, control and 
study such species.
    In addition to the devastation caused by the zebra mussel, 
other introduced exotic species such as the gypsy moth, pine 
boring beetle, Phragmites reed, and brown tree snake have 
inflicted damage on various ecosystems and displaced a number 
of native species. The brown tree snake is a particularly good 
example of the effects of exotic species on native wildlife.
    The brown tree snake was accidentally introduced to Guam in 
the late 1940s with a shipment of military equipment. In the 
absence of natural predators, the snake population spread 
quickly throughout the island. Animals native to Guam, 
especially birds, lacked the natural adaptations to protect 
themselves since snakes had never before existed on the island. 
The result: there are no more native birds in the wild on Guam, 
including the once-common Guam rail and Micronesian kingfisher. 
Although brown tree snakes are nocturnal and are rarely seen by 
people, they have been known to enter people's homes and farms, 
killing small pets and farm animals, and even attacking 
children. Guam's forest is eerily silent.
    Now Hawaii, home to more endangered plants and birds than 
any other U.S. state, may be the brown tree snake's next 
victim. Without the diligence of the Department of Interior and 
the state of Hawaii and their extensive inspection program at 
airports and other transport centers, the brown tree snake 
might already be established on Hawaii, and Hawaiians would 
eventually hear the same eerie silence experienced by Guam. The 
cost associated with this inspection program is understandably 
high--in the millions--but the alternative is the extinction of 
hundreds of species.
    The AZA has also been active in conserving the endangered 
species of these islands. Through its Species Survival 
Plan<Register> (SSP), AZA coordinates a breeding and recovery 
plan for the Guam rail involving sixteen institutional members, 
and a plan for the Micronesian kingfisher involving fourteen 
institutional members. The goal is to someday return these 
species back to their native habitats. Although there is a 
tremendous cost associated with these programs, AZA zoos know 
their involvement is critical because they are the last hope 
these species have from becoming extinct.
    Biologists are familiar with numerous methods to curb the 
adverse effects of introduced animals and to preserve native 
ecosystems and species. Complete elimination of the exotic 
species is sometimes advocated, but it can be a prohibitively 
expensive technique. Controlling populations at low levels has 
also been proposed. Ways to carry out these solutions have 
ranged from live capture of animals to shooting and poisoning.
    As the other speakers today have discussed, the State of 
Maryland, particularly the Eastem Shore, has a serious nutria 
problem. It also has a growing problem with the mute swan, 
another introduced species. Currently, Maryland has a mute swan 
population of 3,000, the largest concentration of any state. 
The population of the entire eastern seaboard is 10,000 birds. 
These birds are very aggressive and have displaced a number of 
local bird populations, especially the threatened black 
skimmer. Mr. Chairman, as the Committee is well aware, the 
wetlands of the Chesapeake Bay are some of the most important 
wetland areas in the United States, and have received global 
recognition as ``Wetlands of International Importance'' under 
the Ramsar Convention Treaty.
    Wetlands are among the most productive ecosystems in the 
world, yet over half of this country's original wetlands have 
already been destroyed, either by development, erosion, 
subsidence, or nonindigenous exotic species.
    Maryland's wetlands are of tremendous importance to the 
state's residents. They serve as a place for fishing, hunting, 
trapping, bird-watching, berry and timber harvesting, 
agriculture and livestock production, and the growing hobby of 
wildlife viewing and photography. The Zoo has been an active 
partner in promoting ecotourism on the Eastern Shore, 
especially bird-watching, through the Delmarva Birding Weekend 
and the creation of the Delmarva Birding Guide. The Eastern 
Shore's wetlands are home to hundreds of species of birds, 
mammals, fish, and insects, and serve as important spawning or 
nursery sites for many finfish and shellfish. Moreover, these 
wetlands are vitally important to over one million waterfowl 
that either winter on the Bay or use it during their migration. 
Resource managers fear that, without intervention, Maryland's 
wetlands, which provide significant ecological, cultural, and 
economic benefits to the state, may completely disappear within 
the next one or two decades.
    While it is important to continue confronting the threats 
to Eastern Shore wetlands of development, erosion, and 
agricultural runoff, dealing with the nutria is perhaps an 
easier task. As you have already heard from the other 
witnesses, nutria are prolific, highly invasive, face no 
natural predators to control their numbers, and threaten the 
native muskrat. Most importantly, these powerful animals forage 
directly on the vegetative root mat, leaving the marsh pitted 
with digging sites and deep canals.
    Consequently, several Federal, state, and private 
organizations--many represented before you--have joined forces 
to develop a plan for controlling nutria. The goal of the 
proposal is to develop methods and strategies to eradicate the 
nutria population, restore marsh habitats, and promote public 
understanding of the importance of preserving Maryland's 
wetlands. I believe the Salisbury Zoo is the perfect partner to 
help execute the latter part of this proposal, because our 
primary mission is to increase the public's awareness and 
appreciation of wildlife and its habitat, and to encourage 
people to become participants in conservation.
    The proposed budget to develop a public awareness program 
is absolutely crucial if the state's residents are to fully 
understand and thus become active partners in controlling 
nutria in Maryland. The program will help minimize the 
controversy that will most likely surround nutria removal 
activities. It is important that Eastern Shore citizens realize 
the significance of the Blackwater National Wildlife Refuge 
proposal, and understand the potential benefits it can have for 
Maryland and other states, such as Louisiana. The Salisbury Zoo 
would be a natural collaborator for the Refuge in disseminating 
information to the public, and would offer an excellent venue 
for education programs that target school children. The Zoo 
sees itself as that bridge, necessary for the program to work, 
between Federal and state agencies and the public.
    This proposed pilot program for eradicating nutria will be 
extremely beneficial in preventing future species from being 
added to the Endangered Species Act, especially if the nutria 
continues its conquest of wetlands habitat. Maryland is 
fortunate; the current nutria population is still small enough 
for this program to be successful. We can eradicate the nutria 
now. However, if we wait much longer, we may only hope to 
control the nutria's numbers. To use that famous saying, an 
ounce of prevention is worth a pound of cure, even at the cost 
of $2.3 million. Weighing the long-term cost of destruction 
from nutria against the benefits of this pilot program, I 
believe the answer is clear.
    This proposal is a good, practical first step to better 
understand the scope of the nutria problem in the Blackwater 
Wildlife Refuge and the entire Eastern Shore, and the best way 
to eradicate this destructive adversary.
    Thank you for allowing me to testify in support of the 
Proposed Blackwater National Wildlife Refuge Marsh Restoration 
Program to Control Nutria.

[GRAPHIC] [TIFF OMITTED] T0341.039

[GRAPHIC] [TIFF OMITTED] T0341.040

[GRAPHIC] [TIFF OMITTED] T0341.041

[GRAPHIC] [TIFF OMITTED] T0341.042

[GRAPHIC] [TIFF OMITTED] T0341.043

[GRAPHIC] [TIFF OMITTED] T0341.044

[GRAPHIC] [TIFF OMITTED] T0341.045

[GRAPHIC] [TIFF OMITTED] T0341.046

[GRAPHIC] [TIFF OMITTED] T0341.047

[GRAPHIC] [TIFF OMITTED] T0341.048

[GRAPHIC] [TIFF OMITTED] T0341.049

[GRAPHIC] [TIFF OMITTED] T0341.050

[GRAPHIC] [TIFF OMITTED] T0341.051

[GRAPHIC] [TIFF OMITTED] T0341.052

[GRAPHIC] [TIFF OMITTED] T0341.053

[GRAPHIC] [TIFF OMITTED] T0341.054

[GRAPHIC] [TIFF OMITTED] T0341.055

[GRAPHIC] [TIFF OMITTED] T0341.056

[GRAPHIC] [TIFF OMITTED] T0341.057

[GRAPHIC] [TIFF OMITTED] T0341.058

[GRAPHIC] [TIFF OMITTED] T0341.059

[GRAPHIC] [TIFF OMITTED] T0341.060

[GRAPHIC] [TIFF OMITTED] T0341.061


</pre></body></html>
